<html>
<title> - THE RISING TERRORIST THREAT AND THE UNFULFILLED 9/11 RECOMMENDATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  THE RISING TERRORIST THREAT AND THE UNFULFILLED 9/11 RECOMMENDATION

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

                           Serial No. 113-79

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               _________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

91-931 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                               Witnesses

Mr. Thomas H. Kean, Jr., Co-Chair, Homeland Security Project, 
  Bipartisan Policy Center and Former Chair, National Commission 
  on Terrorist Attacks Upon the United States:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     8
Ms. Jamie S. Gorelick, Former Commissioner, National Commission 
  on Terrorist Attacks Upon the United States:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................     8

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  DHS Jurisdiction Chart.........................................    19

 
  THE RISING TERRORIST THREAT AND THE UNFULFILLED 9/11 RECOMMENDATION

                              ----------                              


                        Wednesday, July 23, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:11 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Rogers, Broun, 
Meehan, Marino, Palazzo, Barletta, Daines, Brooks, Thompson, 
Jackson Lee, Clarke, Barber, Payne, O'Rourke, and Vela.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to examine key 
issues contained in the Bipartisan Policy Center's research 
report marking the 10th anniversary of the release of the 
original 9/11 Commission report. I now recognize myself for an 
opening statement.
    Ten years after the 9/11 Commission provided 
recommendations to prevent other terrorist attacks on the 
United States soil, the terror threat from abroad remains real, 
and we will continue to be challenged identifying home-grown 
terrorists.
    The current instability in the Middle East, the web of al-
Qaeda affiliates, and the rapid advance of extremist ISIS 
militants are fueling the rise of new safe havens where 
terrorists live, train, and plot future attacks.
    In a recently-released anniversary report, the former 
members of the commission reflect on the progress made and 
provide recommendations on how to further enhance the security 
of the United States. Specifically, the new report concludes 
that some recommendations from the commission remain 
unfulfilled, and one in particular has been largely ignored: 
Reforming Congressional jurisdiction over the Department of 
Homeland Security.
    In 2004, the 9/11 Commission recognized the importance of 
eliminating terrorist safe havens. The report stated, 
``Terrorists should no longer find safe havens where their 
organizations can grow and flourish. Our efforts should be 
accompanied by a preventative strategy that is as much, or 
more, political as is military.''
    Those words were written a decade ago, yet safe havens for 
terrorists not only still exist, they have expanded and beyond 
the regions where the 9/11 attacks originated.
    For instance, ISIS, an organization too extreme for al-
Qaeda, has made alarming territorial gains in both Syria and 
Iraq, establishing the largest terrorist safe haven since 9/11. 
The group's leader, al-Baghdadi, has declared himself head of a 
new Muslim caliphate. ISIS has the ambition and now the 
funding, weapons, and manpower to launch attacks against United 
States' interests abroad and possibly into the homeland.
    Furthermore, foreign fighters with valid travel documents 
are flooding into the region, many from Western countries, 
including the United States. Like ISIS, al-Nusra, the Syrian 
al-Qaeda affiliate, has established training camps catering not 
only to local extremists, but fighters coming from abroad. 
These camps serve as training grounds for many, including the 
American teenager from Florida who is believed to have carried 
out a suicide bomb attack in May. Although he carried out his 
attack in Syria, he could have instead attempted to travel back 
into the United States following his training.
    Self-radicalized terrorists like Nidal Hassan, who fatally 
shot 13 people at Fort Hood in 2009, and Tamerlan Tsarnaev, one 
of the perpetrators of the Boston Marathon bombings, were 
allegedly influenced or used such extremist propaganda, rich 
with content from jihadi fighting. The threats to the homeland 
extend beyond the traditional battlefield also into the cyber 
realm.
    American companies, universities, defense capabilities, and 
critical infrastructure are all under cyber attack. Most 
concerning, however, is that the threat is outpacing our 
readiness to combat it. One expert described our cyber 
preparedness as being at ``September 10 levels.'' My concern is 
that history will repeat itself when it comes to cyber and we 
will not, as a Nation, acknowledge the gravity of the threat 
until it is too late.
    Another unfulfilled commission recommendation also 
threatens American security. The continued fragmentation of 
Congressional oversight of the Department of Homeland Security 
makes us less agile in the face of these growing threats. DHS 
is forced to expend scarce resources reporting to far too many 
Congressional committees, resources that could be spent 
protecting the American people. Ironically, this excess of 
oversight actually leads to a lack of accountability because of 
the mixed signals and conflicting demands of Congressional 
committees.
    In fiscal year 2013, according to the Department of 
Homeland Security, the agency facilitated more than 1,650 
briefings with Members of Congress or their staff, provided 161 
witnesses who testified at 105 hearings, and engaged with 
nearly all Members of Congress and dozens, if not 100 
committees. This cost taxpayers tens of millions of dollars and 
cost DHS 66 work years in man-hours.
    To address these flaws, the 9/11 Commission Report 
recommended that Congress ``create a single, principal point of 
oversight and review for homeland security.'' This critical 
step has yet to be taken, and it is cited in the commission's 
latest report.
    Just as the National Security Act of 1947 reorganized the 
United States Government's military and intelligence agencies 
into a unified Federal structure, the Homeland Security Act of 
2002 unified several agencies into a single organization to 
coordinate and unify National homeland security efforts. While 
these changes were accepted by the administration, Congress, in 
many cases, is still working under pre-9/11 authorities.
    Congress needs to create clear jurisdictional lines to 
ensure that DHS receives strong, centralized oversight and can 
focus its efforts on its mission to protect the United States. 
These steps are necessary to ensure the safety and security of 
the homeland.
    In the mean time, my committee will spend significant time 
the remainder of this year and in the next Congress authorizing 
key DHS components. Moreover, in partnership with the other 
committees of jurisdiction, I intend to lead the first-ever DHS 
authorization through regular order.
    We are fortunate today to have the chairman of the 9/11 
Commission, along with the former commissioner, Jamie Gorelick, 
here today to offer their insights and perspectives. I hope our 
hearing will help us create actionable solutions that can 
address these shortcomings sooner rather than later.
    I would like the opportunity today to thank the 9/11 
victims' families who are with us here today. Through their 
persistent efforts, the 9/11 Commission was established to 
investigate that horrific attack on U.S. soil that we will 
always remember and never forget. We thank them for their 
continued commitment to secure the homeland.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             July 23, 2014
    Ten years after the 9/11 Commission provided recommendations to 
prevent other terrorist attacks on United States soil the terror threat 
from abroad remains real, and we will continue to be challenged in 
identifying home-grown terrorists. The current instability in the 
Middle East, the web of al-Qaeda affiliates and the rapid advance of 
extremist ISIS militants are fueling the rise of new safe havens where 
terrorists live, train, and plot future attacks.
    In a recently-released anniversary report, the former members of 
the Commission reflect on the progress made and provide recommendations 
on how to further enhance the security of the United States. 
Specifically, the new report concludes that some recommendations from 
the Commission remain unfulfilled and one in particular has been 
largely ignored--reforming Congressional jurisdiction over the 
Department of Homeland Security.
    In 2004, the 9/11 Commission recognized the importance of 
eliminating terrorist safe havens. The report stated: ``Terrorists 
should no longer find safe haven where their organizations can grow and 
flourish . . . Our efforts should be accompanied by a preventative 
strategy that is as much, or more, political as it is military.'' Those 
words were written a decade ago--yet safe havens for terrorists not 
only still exist, they have expanded well beyond the regions where the 
9/11 attacks originated.
    For instance, ISIS--an organization too extreme for al-Qaeda--has 
made alarming territorial gains in both Syria and Iraq, establishing 
the largest terrorist safe haven since 9/11. The group's leader, Abu 
Bakr al-Baghdadi, has declared himself head of a new Muslim caliphate. 
ISIS has the ambition and now the funding, weapons, and manpower to 
launch attacks against U.S. interests abroad and possibly the homeland.
    Furthermore, foreign fighters with valid travel documents are 
flooding into the region; many from Western countries including the 
United States. Like ISIS, al-Nusra, the Syrian al-Qaeda affiliate, has 
established training camps catering not only to local extremists but 
fighters coming from abroad. These camps served as training grounds for 
many including the American teenager from Florida who is believed to 
have carried out a suicide bomb attack in May. Although he carried out 
his attack in Syria, Abusahla could have instead attempted to travel 
back to the United States following his training.
    Self-radicalized terrorists like Nidal Hassan, who fatally shot 13 
people at Fort Hood in 2009, and Tamerlan Tsarnaev, one of the 
perpetrators of the Boston Marathon bombings, were allegedly influenced 
or used such extremist propaganda, rich with content from jihadi 
fighting.
    The threats to the homeland extend beyond the traditional 
battlefield into the cyber realm. American companies, universities, 
defense capabilities, and critical infrastructure are all under cyber 
attack. Most concerning, however, is that the threat is outpacing our 
readiness to combat it. One expert described our cyber-preparedness as 
being at ``September 10 levels.'' My concern is that history will 
repeat itself when it comes to cyber and we will not, as a Nation, 
acknowledge the gravity of the threat until it is too late.
    Another unfulfilled Commission recommendation also threatens 
American security. The continued fragmentation of Congressional 
oversight of the Department of Homeland Security makes us less agile in 
the face of these growing threats. DHS is forced to expend scarce 
resources reporting to far too many Congressional committees--resources 
that could be spent protecting the American people.
    Ironically, this excess of oversight actually leads to a lack of 
accountability because of the mixed signals and conflicting demands of 
Congressional committees. In fiscal year 2013, according to the 
Department of Homeland Security, the agency facilitated more than 1,650 
briefings with Members of Congress or their staff, provided 161 
witnesses who testified at 105 hearings, and engaged with nearly all 
Members of Congress and dozens of committees. This cost taxpayers tens 
of millions of dollars and cost DHS 66 work years in man-hours.
    To address these flaws, 9/11 Commission Report recommended that 
Congress ``create a single, principal point of oversight and review for 
homeland security.'' This critical step has yet to be taken and is 
cited in the Commission's latest report.
    Just as the National Security Act of 1947 reorganized the United 
States Government's military and intelligence agencies into a unified 
Federal structure, the Homeland Security Act of 2002 unified several 
agencies into a single organization to coordinate and unify National 
homeland security efforts. While these changes were accepted by the 
administration, Congress, in many cases, is still working under pre-9/
11 authorities.
    Congress needs to create clear jurisdictional lines to ensure that 
DHS receives strong, centralized oversight and can focus its efforts on 
its mission to protect the United States. These steps are necessary to 
ensure the safety and security of the homeland.
    In the meantime, my committee will spend significant time the 
remainder of this year and into the next Congress authorizing key DHS 
components. Moreover in partnership with the other committees of 
jurisdiction, I intend to lead the first ever DHS authorization through 
regular order.
    We are fortunate today to have the co-chair of the 9/11 Commission 
Tom Kean, as well as former Commissioner Jamie Gorelick here to offer 
their insights and perspectives. I hope our hearing will help us create 
actionable solutions that can address these shortcomings sooner rather 
than later.
    I would like to take this opportunity to recognize the 9/11 
victims' families who are with us today. Through their persistent 
efforts, the 9/11 Commission was established to investigate that 
horrific attack on U.S. soil. We thank them for their continued 
commitment to secure the homeland.

    Chairman McCaul. With that, the Chairman now recognizes the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. I thank 
you for holding today's hearing. I would also like to thank the 
witnesses for their testimony.
    Ten years ago, the National Commission on Terrorist Attacks 
in the United States issued the official account of the 
terrorist attacks that occurred on September 11, 2001. In that 
report, the 9/11 Commission made a series of recommendations to 
strengthen our counterterrorism efforts, foster information 
sharing beyond traditional boundaries, and strengthen 
Congressional oversight to improve the effectiveness of 
homeland security measures.
    While the Implementing 9/11 Commission Recommendations Act 
addressed many of these recommendations, challenges still 
remain. From the outset, the 9/11 Commission was tasked to make 
recommendations to prevent another terrorist attack. In the 10 
years since the report's release, we have seen the terrorist 
threat change. The top leadership of al-Qaeda, the group that 
claimed responsibility for the 9/11 attacks, has been 
dismantled by the Obama administration.
    Although al-Qaeda has been weakened, we remain vigilant 
about persistent and emerging threats. We must closely monitor 
the capabilities of al-Qaeda's affiliates who are thriving in 
the untenable areas such as Iraq and Syria. Though many of 
these groups' aspirations are localized to the countries in 
which they operate, they do not espouse anti-American views 
that are concerning.
    We also must turn a blind eye to the threat of lone-wolf 
actors in the United States. Some of these people are inspired 
by al-Qaeda and domestic anti-Government and hate groups. From 
counterterrorism efforts to succeed, we need to do a better job 
of sharing information. That is the message from the 9/11 
commissioners a decade ago, and that is their message today.
    Last year's Boston Marathon bombing re-emphasized the need 
for improvements in information sharing between both Federal 
agencies and State and local authorities. The continued 
evolution and escalation of al-Qaeda and its affiliates abroad 
also underscores the need for strong intelligence and 
information partnerships with our foreign allies. I fear that 
some of our key relationships have been tested by high-profile 
leaks about NSA programs and other counterterrorism efforts. 
More needs to be done to fortify key information-sharing 
relationships.
    Also, I appreciate that the Bipartisan Policy Committee has 
highlighted cybersecurity as an area of concern. As we become 
more dependent on technology, opportunities for cyberterrorism 
increase rapidly. Today, hostile nations, criminal groups, and 
individuals seek to exploit information networks to further a 
variety of individual, National, and ideological objectives. I 
have been a major proponent of DHS's efforts to foster cyber 
hygiene and timely information sharing, particularly among 
critical infrastructure's owners and operators.
    Though I know it is directly related to today's 
proceedings, I do want to express, on the record, my hope that 
bipartisan cybersecurity legislation that was approved by the 
committee, Mr. Chairman, in February will be considered by the 
House hopefully before August. We need to do more to create an 
environment of vigilance that gives Americans confidence that 
their personal data is private and secure, and allow the 
Government to ensure the integrity of its information while 
identifying and prosecuting cyber criminals when possible.
    Further, as the Bipartisan Policy Committee also notes in 
its report, the House, under both Democratic and Republican 
majorities, has failed to consolidate authorizing and oversight 
jurisdiction for each component of the Department of Homeland 
Security into one Congressional committee. I agree with the 9/
11 commissioners that the fragmented oversight detracts from 
the Department's National security mission. We have seen it 
time and time again.
    I am sure the Chairman would agree that this committee 
should be the authorizing and oversight committee of the 
Department of Homeland Security, but that comes with a price. 
The price is asserting jurisdiction. I have been in the 
Chairman's seat, tried to do it, and I welcome you to try to 
get it done under your leadership.
    It is disappointing that with 8 voting weeks left in 
Congress, this committee is on track to receive its lowest 
number of referrals since its inception. Looking forward, as we 
continue to strengthen the Department of Homeland Security, we 
must not forget the terrorist threat, but recognize it is 
evolving.
    Information sharing must be strengthened, and we must 
foster greater cybersecurity protections, particularly on the 
networks that are the backbone for critical infrastructure. I 
look forward to working in a bipartisan manner to fulfill these 
9/11 recommendations.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 23, 2014
    Ten years ago, the ``National Commission on Terrorist Attacks in 
the United States'' issued the official account of the terrorist 
attacks that occurred on September 11, 2001. In that report, the 9/11 
Commission made a series of recommendations to strengthen our 
counterterrorism efforts, foster information sharing beyond traditional 
boundaries, and strengthen Congressional oversight to improve the 
effectiveness of homeland security measures.
    While the ``Implementing 9/11 Commission Recommendations Act'' 
addressed many of these recommendations, challenges still remain. From 
the outset, the 9/11 Commission was tasked to make recommendations to 
prevent another terrorist attack. In the 10 years since the report's 
release, we have seen the terrorist threat change. The top leadership 
for al-Qaeda, the group that claimed responsibility for the 9/11 
attacks, has been dismantled by the Obama administration. Although al-
Qaeda has been weakened exponentially, we remain vigilant about 
persistent and emerging threats. We must closely monitor the 
capabilities of al-Qaeda's affiliates who are thriving in unstable 
areas such as Iraq and Syria. Though many of these groups' aspirations 
are localized to the countries in which they operate, they do espouse 
anti-American views that are concerning.
    We also must not turn a blind eye to the threat of lone wolf actors 
in the United States. Some of these people are inspired by al-Qaeda and 
domestic anti-Government and hate groups. For counterterrorism efforts 
to succeed, we need to do a better job of sharing information. That is 
the message from the 9/11 commissioners a decade ago and that is their 
message today. Last year's Boston Marathon Bombing reemphasized the 
need for improvements in information sharing between both Federal 
agencies and State and local authorities.
    The continued evolution and escalation of al-Qaeda and its 
affiliates abroad also underscores the need for strong intelligence and 
information partnerships with our foreign allies. I fear that some of 
our key relationships have been tested by high-profile leaks about NSA 
programs and other counterterrorism efforts. More needs to be done to 
fortify key information-sharing relationships.
    Also, I appreciate that the Bipartisan Policy Committee has 
highlighted cybersecurity as an area of concern. As we become more 
dependent on technology, opportunities for cyberterrorism increase 
rapidly. Today, hostile nations, criminal groups, and individuals seek 
to exploit information networks to further a variety of individual, 
National, and ideological objectives. I have been a major proponent of 
DHS's efforts to foster cyber hygiene and timely information sharing, 
particularly among critical infrastructure owners and operators.
    Though I know it is directly related to today's proceedings, I do 
want to express, on the record, my hope that bipartisan cybersecurity 
legislation that was approved by the committee in February will be 
considered by the House before August. We need to do more to create an 
environment of vigilance that gives Americans confidence that their 
personal data is private and secure, and allow the Government to ensure 
the integrity of its information while identifying and prosecuting 
cyber criminals when possible.
    Further, as the Bipartisan Policy Committee also notes in its 
report, the House, under both Democratic and Republican majorities, has 
failed to consolidate authorizing and oversight jurisdiction for each 
component of the Department of Homeland Security into one Congressional 
committee. I agree with the 9/11 Commissioners that the fragmented 
oversight detracts from the Department's National security mission. We 
have seen it time and again.
    I am sure the Chairman would agree that this committee should be 
the authorizing and oversight committee of the Department of Homeland 
Security, but that comes with a price. That price is asserting 
jurisdiction. It is disappointing that with 8 voting weeks left this 
Congress, this committee is on track to receive its lowest number of 
referrals since its inception. Looking forward, as we continue to 
strengthen the Department of Homeland Security, we must not forget the 
terrorist threat, but recognize it is evolving.
    Information sharing must be strengthened and we must foster greater 
cybersecurity protections, particularly on the networks that are the 
backbone for critical infrastructure. I look forward to working in a 
bipartisan manner to fulfill these 9/11 recommendations.

    Chairman McCaul. Thank the Ranking Member. I would like to 
enter into the record reflections on the 10th anniversary of 
the 
9/11 Commission Report that just came out, and great work on 
the part of the commission. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at http://bipartisanpolicy.org/wp-content/uploads/sites/
default/files/files/%20BPC%209-11%20Com- mission.pdf.
---------------------------------------------------------------------------
    We are honored today to have two distinguished witnesses, 
members of the 9/11 Commission. First, the Honorable Thomas 
Kean is the co-chair of the Homeland Security Project at the 
Bipartisan Policy Center. We had a great discussion there 
yesterday, and I thank the two of you for that.
    He is also the former chairman of the National Commission 
on Terrorist Attacks Upon the United States. The 9/11 
Commission released its report in 2004, which has been an 
integral part in shaping American National security. Prior to 
chairing the 9/11 Commission, he served as Governor of New 
Jersey and president of Drew University.
    Sir, thank you for being here.
    Next, we have the Honorable Jamie Gorelick. As a former 
commissioner on the National Commission on Terrorist Attacks 
Upon the United States, currently she is a partner at 
WilmerHale, where she chairs the defense, National security, 
and Government contracts practice group. She was one of the 
longest-serving deputy attorneys general of the United States, 
under which I was proud to serve as a low-level line Federal 
prosecutor in the public integrity section. Prior to joining--I 
don't know if she remembers me or not, but I certainly remember 
her. Prior to joining the Department of Justice, Ms. Gorelick 
served as the general counsel for the Department of Defense.
    We thank both of you for being here. I now recognize 
Governor Kean for his testimony.

 STATEMENT OF THOMAS H. KEAN, JR., CO-CHAIR, HOMELAND SECURITY 
 PROJECT, BIPARTISAN POLICY CENTER AND FORMER CHAIR, NATIONAL 
     COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Kean. Thank you. Well, thank you both for inviting us, 
and thank the committee. This committee has done a great deal 
already to keep our country safer, and we thank you for that 
very much.
    My friend and co-chairman Lee Hamilton hoped to be here 
with us today, but he cannot be, unfortunately. He was unable 
to come. So my colleague and friend, former 9/11 Commissioner 
Jamie Gorelick, joins me in appearing before you today. We are 
here, of course, to mark, for us, the 10th anniversary of the 
9/11 Committee report, a document which, with your help, led to 
major reforms in National security.
    Last fall, we started among ourselves--many of us haven't 
seen each other in 7, 8, 9 years--to consider how we might 
observe the 10th anniversary of our report. What we decided was 
we wanted to say something at that time which would help the 
American public understand the terrorist threat we face today 
and how that terrorist threat has changed over the last 10 
years.
    We also wanted to look back on how our own work 10 years 
ago--and we think there are lessons to be learned in how we 
have--how five Republicans and five Democrats happened to reach 
bipartisan and unanimous agreement, especially because we share 
the view that responding to the terrorist threat, taking the 
important steps needed to protect the country, is a part of our 
National security which simply must have a bipartisan approach.
    To better inform ourselves, we reached out to many of our 
country's foremost senior, current, and former National 
security officials with responsibility for counterterrorism. We 
included names of many of the officials in our report, and they 
generously shared their time and did it with candor and 
frankness. They answered all our questions with clarity. They 
ducked none of them. We came away with the experience and 
renewed admiration for the fact that this Government continues 
to have a number of dedicated public servants in the security 
area.
    We held separate conversations, by the way, with each one 
of these leaders, and yet we were struck by the fact that 
across all of them, there was really a broad consensus and a 
fear of the problems that were confronting us today and a worry 
whether the American people really had a perception of how the 
threat has changed and how serious that threat is today.
    What we hope to succeed in doing in our paper is to amplify 
for the public these common threads that these security 
officials shared with us. I would like now to ask former 
Commissioner Jamie Gorelick to summarize what we learned and 
the key points in the paper.
    [The joint prepared statement of Mr. Kean and Ms. Gorelick 
follows:]
 Joint Prepared Statement of Thomas H. Kean, Jr. and Jamie S. Gorelick
                             July 23, 2014
                              introduction
    Mr. Chairman, Mr. Ranking Member, Members of the committee: We are 
grateful for the opportunity to appear before you today. This committee 
has been at the center of improving our country's defenses against 
terrorist attacks. We are deeply grateful to you for your sustained 
support of the 9/11 Commission's recommendations and your leadership in 
reforming our National security institutions. Overseeing and guiding 
the Department of Homeland Security, which is still a young and 
evolving department, is one of the most important National security 
duties of the Congress. Over the past decade, this committee has been a 
steadfast champion of needed reform.
    Today, we are appearing in our capacity as former 9/11 
Commissioners. Governor Kean and Congressman Hamilton, the chair and 
vice chair of the 9/11 Commission, now lead the Homeland Security 
Project at the Bipartisan Policy Center. Drawing on a strong roster of 
National security professionals, the Project's mission is to be a 
bipartisan voice on homeland- and National-security issues. It works as 
an independent group to monitor the implementation of the 9/11 
Commission's recommendations and address other emerging threats to our 
Nation.
    On July 22, 2004, we issued The 9/11 Commission Report, the 
official report of the devastating attacks of September 11, 2001. Ten 
years later, the ten former members of the Commission reconvened, under 
the auspices of the Bipartisan Policy Center, to take stock of the 
terrorist threat and the country's readiness to face it.
      continuing terrorist threat from al-qaeda and its affiliates
    When we wrote our report 10 years ago, we were acutely mindful of 
the responsibility we bore to the American people--and the families of 
the victims--to provide the most complete account possible of the 
events leading up to that terrible day. We used what we learned from 
that awful history to make recommendations as to how to make America 
safer. Today, we are pleased that most of those recommendations have 
been enacted into law or adopted as policy.
    A decade after releasing our report, we are struck by how 
dramatically the world has changed. In the United States, Federal, 
State, and local authorities have implemented major security reforms to 
protect the country. Overseas, the United States and allies went on the 
offensive against al-Qaeda and related terrorist organizations. Ten 
years ago, many feared that al-Qaeda would launch more catastrophic 
attacks on the United States. That has not happened. While home-grown 
terrorists struck Fort Hood and the Boston Marathon, with tragic 
results, and while major attempted attacks on aviation have been 
disrupted, no attack on a scale approaching that of 9/11 has taken 
place.
    U.S. and allied efforts have badly hurt ``core'' al-Qaeda, the 
organization that attacked us on 9/11. Al-Qaeda's leadership has been 
seriously diminished, most notably by the killing of Usama bin Ladin. 
The blows the United States has dealt those who struck us on 9/11 are a 
credit to the ceaseless work of dedicated men and women in our military 
and in our intelligence services, who often serve their country without 
accolades or even public acknowledgement.
    However, the threat from jihadist terrorism persists. While core 
al-Qaeda has been damaged in recent years, its affiliates and 
associated groups have dispersed throughout the greater Middle East. 
Al-Qaeda spinoffs--some small, some worryingly large--now have a 
presence in more theaters of operation than they did half a decade ago, 
operating today in at least 16 countries.
    In The 9/11 Commission Report, we said that one of the key lessons 
of the 9/11 story was that there can be ``no sanctuaries'' for 
terrorist groups. Geographic sanctuaries (like pre-9/11 Afghanistan) 
enable terrorist groups to gather, indoctrinate and train recruits, and 
they offer breathing space in which to develop complex plots (like the 
9/11 attacks). The Islamic State in Iraq and Syria (``ISIS'') now 
controls vast swaths of territory in Iraq and Syria, creating a massive 
terrorist sanctuary. Afghanistan could revert to that condition once 
American troops depart at the end of 2014. The recent Taliban offensive 
in Helmand Province illustrates that danger.
    Meanwhile, al-Qaeda in the Arabian Peninsula (``AQAP'') remains 
interested in striking the United States. The Saudi-born Ibrahim al-
Asiri, AQAP's chief bomb maker, devised the underwear bomb worn by Umar 
Farouk Abdulmuttalab. Al-Asiri remains at large and there are concerns 
that he is gaining experience in the concealment and miniaturization of 
bombs and manufacturing them from nonmetallic materials, making them 
far harder to detect.
    More than 10,000 foreign fighters have flooded into Syria. Once 
there, these fighters have access to on-the-job training in military 
operations, fashioning improvised explosive devices, and using assault 
weapons. Many come from Western Europe, but more than 70 are believed 
to be from the United States. One of these Americans, a Florida man in 
his early 20s, recently blew himself up in a suicide attack in northern 
Syria, the first instance of an American suicide bomber there. American 
counterterrorism and homeland security officials and European allies 
are deeply concerned that hardened fighters from Syria may redirect 
their venom and battlefield experience toward the United States or 
their European countries of origin. In at least one instance, this 
appears already to have happened: The suspect in the deadly May 24 
shooting attack on the Jewish Museum in Brussels had spent more than a 
year in Syria, where he is believed to have joined up with jihadist 
groups.
    Federal Bureau of Investigation Director James Comey has described 
the situation in Syria as, in several respects, ``an order of magnitude 
worse'' than the terrorist training ground that existed in Afghanistan 
before 9/11. It is unclear whether the United States and its allies 
have sufficient resources in place to monitor foreign fighters' 
activities in Syria (and neighboring Iraq) and to track their travel 
back to their home countries.
    The convulsions across the Muslim world, from the Sahel to 
Pakistan, create opportunities for extremist groups to work their will. 
Opportunities to exert power may, to some extent, keep terrorists 
focused on their home regions. According to the State Department, 
terrorist attacks rose 43 percent worldwide in 2013. These attacks 
killed 17,891 and wounded 32,577. The Department reports that the vast 
majority of these incidents were local or regional, not international, 
in focus.
    It does not follow, however, that terrorist groups have relaxed 
their enmity toward the United States and its allies. The 2012 attack 
on U.S. facilities in Benghazi, Libya, resulted in the deaths of four 
Americans, including the American ambassador. In 2013, al-Shabaab 
attacked the Westgate mall in Nairobi, Kenya, murdering more than 60 
innocent people. These are reminders that dedicated terrorists can 
successfully execute deadly attacks against targets associated with the 
United States and the West.
    Some National security officials believe that the forces of 
Islamist extremism in the Middle East are stronger than in the last 
decade. Partly, this is a consequence of the Arab Spring and the power 
vacuums and ungoverned spaces that have sprung up in its wake. Partly, 
it is the result of America's inability or reluctance to exert power 
and influence in a number of places. Officials are also deeply 
concerned about the region's seemingly endless supply of disaffected 
young people vulnerable to being recruited as suicide bombers. We 
explained in The 9/11 Commission Report that the ``United States finds 
itself caught up in a clash within a civilization,'' which ``arises 
from particular conditions in the Muslim world.'' This clash has only 
intensified since then.
    Our assessment is that the terrorist threat is evolving, not 
defeated. Al-Qaeda's various spinoffs are, at the moment, enmeshed in 
their own local conflicts, but hatred of the United States remains a 
common thread. While some of these groups are not capable of striking 
the U.S. homeland, they may seek to attack outposts of the U.S. 
presence overseas, including diplomatic posts, military bases, or 
softer targets such as American businesses in foreign countries.
    Home-grown terrorism remains a serious concern as well. Purveyors 
of hatred spread their radical ideology over the internet, attempting 
to recruit new terrorists both abroad and in the United States. The 
risk is not only that new terrorist cells are being created; on-line 
propaganda can also influence ``lone wolf'' terrorists, who can be 
extremely difficult for authorities to spot. The support of the 
American Muslim community in opposing extremism, increased awareness by 
the public at large, and a massive law enforcement effort have made the 
United States a much harder target than it was on 9/11. But the tragedy 
of the Boston Marathon bombing is a reminder of how dangerous home-
grown extremists can be, despite these advances.
    In sum, the terrorist threat has evolved, but it is still very real 
and very dangerous. The absence of another 9/11-style attack does not 
mean the threat is gone: As 9/11 showed, a period of quiet can be 
shattered in a moment by a devastating attack. The pressing question is 
whether the United States is prepared to face the emergent threats of 
today--and those it is likely to face in the years to come.
                          unfinished business
    The Intelligence Reform and Terrorism Prevention Act of 2004 
ushered in the most significant restructuring of the intelligence 
community since 1947. Despite this progress, some recommendations from 
The 9/11 Commission Report remain unimplemented.
    First and foremost is reform of Congress's committee structure for 
overseeing homeland security. Your committee is Congress's expert on 
DHS and should be preeminent in terms of overseeing and legislating for 
the Department. Our recommendation of 10 years ago remains urgent 
today: ``Through not more than one authorizing committee . . . in each 
house, Congress should be able to ask the Secretary of Homeland 
Security whether he or she has the resources to provide reasonable 
security against major terrorist acts within the United States and to 
hold the Secretary accountable for the department's performance.'' 
Regrettably, an unwieldy hodgepodge of other committees still exercises 
residual oversight and legislative jurisdiction over DHS. In 2004, we 
remarked with astonishment and alarm that DHS reported to 88 committees 
and subcommittees of Congress. Incredibly, DHS reports that that number 
has since increased, to 92.
    This is not an academic concern. In The 9/11 Commission Report, we 
said that Congress, as a whole, adjusted slowly to the rise of 
transnational terrorism as a threat to National security. In the years 
before September 11, terrorism seldom registered as important, and 
Congress did not reorganize itself after the end of the Cold War to 
address new threats. Splintered committee jurisdiction resulted in 
episodic and inadequate attention to terrorism and to the overarching 
strategies needed to combat terrorist organizations. Put simply, when 
everyone is responsible, no one is.
    We knew that, of ``all our recommendations, strengthening 
Congressional oversight may be among the most difficult.'' 
Unfortunately, we were right. While the Executive branch has, at 
Congress's behest and urging, undergone historic change and 
institutional reform, Congress has proved deeply resistant to reforming 
its own structures for DHS oversight. In particular, it has delayed in 
yielding to this committee preeminent authorizing jurisdiction and 
oversight responsibility over all DHS components.
    Again and again, past and present DHS senior managers have told us 
that this fragmented Congressional oversight is counterproductive to 
National security goals. DHS is still a young department, continually 
learning and striving to improve. Congress should help guide senior 
officials in managing the Department as a cohesive whole, rather than 
as a collection of disparate parts. The proliferation of oversight 
committees has the opposite effect. More than 90 different committees 
and subcommittees cannot develop expertise about the Department as a 
whole. Nor can committees that only oversee certain DHS components 
understand the effect of what they do on the Department's overall 
mission, or compare all of the competing priorities among which 
Department leaders must choose. Emblematic of this inability is the 
fact that Congress has not, since the Department's creation, enacted a 
final comprehensive DHS authorization bill setting policy and spending 
priorities for the Department.
    Reporting to this vast array of committees also places an 
extraordinary administrative burden on DHS, which must prepare reams of 
written testimony and respond to countless questions for the record. 
This burden distracts from other, higher-priority tasks.
    Effective Congressional oversight is especially important in areas, 
like homeland security, where much of the Government's activity 
necessarily occurs out of public view. Unlike other areas of policy, 
where the press and public can themselves monitor what their Government 
is doing, the public must rely on Congress to be its eyes and ears with 
respect to sensitive and Classified National security programs.
    We have full confidence that this committee, and the Senate 
Committee on Homeland Security and Governmental Affairs, have the 
expertise and focus to best do that job for the American people. It is 
long past time for other committees to step back and allow you to fully 
take the reins for DHS. At the very minimum, the next Congress should 
sharply reduce the number of committees and subcommittees with some 
jurisdiction over the Department. The Department of Homeland Security 
should receive the same streamlined oversight as the Department of 
Defense.
    These changes should take effect when the next Congress convenes 
and the House and Senate adopt new rules in January. Planning should 
begin now to make this possible.
    The 9/11 Commission recommended creating a Director of National 
Intelligence (DNI) to oversee National intelligence centers on specific 
subjects of interest across the U.S. Government, and to manage the 
National intelligence program and oversee the agencies that contribute 
to it.
    Congress created that office in the Intelligence Reform and 
Terrorism Prevention Act of 2004. Despite differences of view 10 years 
ago, senior leaders in the intelligence community today believe that 
the Office of the DNI has found its role in the National security 
apparatus. The DNI has been accepted as the manager of the community. 
Joint duty is becoming more common: More than 10,000 intelligence 
community civilian employees are certified as having done joint duty, 
with 1,000 doing so each year.
    Many senior officials told us that personal chemistry among the 
leaders of the intelligence community and Pentagon is as important, if 
not more important, than legislated authority for the overall smooth 
and effective functioning of the National security system. It is not 
just a law that makes an organization or system work--it is the people. 
The current DNI's conception of his office has enabled him to 
successfully manage the community and elicit cooperation from its 
components. In particular, future DNIs should follow these key 
policies: (1) Coordinating the work of the various intelligence 
agencies, rather than replicating that work or turning ODNI itself into 
an operational entity; (2) advancing interagency information sharing, 
unified IT capabilities, joint duty, and other community-wide 
initiatives; and (3) providing centralized budgetary planning to ensure 
that the community as a whole possesses the most effective combination 
of tools.
    Today, the Office of the DNI continues to be hampered by Congress's 
failure to update its practices to reflect post-9/11 reforms. One such 
anachronism: Intelligence community funds are not conveyed in a single 
appropriation. Instead, many community funds are buried in 
appropriations for the Department of Defense (DOD), a vestige of by-
gone days when the top-line intelligence budget was Classified. With 
that figure now a matter of public record, there is no longer any 
reason to hide intelligence funds in the DOD budget.
    A unified intelligence community budget, managed by the Director of 
National Intelligence and overseen by a single subcommittee in each 
house of Congress, would enable the DNI to manage community resources 
without navigating a bureaucratic labyrinth. It would also help ensure 
better oversight of the intelligence budget. Cohesive and comprehensive 
oversight of all intelligence community funding would be easier if 
appropriations for all 16 member agencies, plus ODNI, were conveyed in 
a single bill.
    We believe that there is today greater agreement on this point than 
10 years ago. We were particularly struck by the statement of a former 
senior leader of the Department of Defense that the DNI should have 
full authority to manage the intelligence community's budget. To that 
end, we reiterate our original recommendations: Congress should pass a 
separate appropriations act for the National Intelligence Program. The 
DNI should receive all funds appropriated in that bill and have full 
authority to apportion them among community agencies and reprogram them 
as needed to meet new priorities.
             the importance of data collection and analysis
    In The 9/11 Commission Report, we noted the importance of 
intelligence collection and analysis in counterterrorism, and we 
recommended reforms to improve both. Intelligence gathering is the 
single most effective way to thwart terrorism--but identifying and 
finding terrorists, who go to great lengths to cover their tracks, is a 
very difficult task. Often no single report is definitive. Rather, it 
is the accumulation and filtering of vast amounts of information, 
zeroing in on what is relevant, that leads to intelligence 
breakthroughs. This was true of the hunt for bin Ladin, which was 
conducted over a decade and built on the efforts of hundreds, if not 
thousands, of intelligence officers.
    Data collection and analysis are vital tools for preventing 
terrorist attacks. Terrorist networks rely on a variety of technologies 
to communicate, to plan operations, and to recruit new personnel. The 
Government currently makes use of powerful technology to collect and 
analyze data from communications. Those capabilities will be enhanced 
as technology advances in the years ahead. As these technical 
capabilities advance, it will be even more important to define legal 
parameters that limit these technologies' uses to true needs.
    We believe these programs are worth preserving, albeit with 
additional oversight. Every current or former senior official with whom 
we spoke told us that the terrorist and cyber threats to the United 
States are more dangerous today than they were a few years ago. And 
senior officials explained to us, in clear terms, what authorities they 
would need to address those threats. Their case is persuasive, and we 
encountered general agreement about what needs to be done.
    Senior leaders must now make this case to the public. The President 
must lead the Government in an on-going effort to explain to the 
American people--in specific terms, not generalities--why these 
programs are critical to the Nation's security. If the American people 
hear what we have heard in recent months, about the urgent threat and 
the ways in which data collection is used to counter it, we believe 
that they will be supportive. If these programs are as important as we 
believe they are, it is worth making the effort to build a more solid 
foundation in public opinion to ensure their preservation. While the 
American public has become more skeptical, now is the time to engage 
them in an honest, transparent discussion of these issues.
    Greater oversight would also help bolster these programs' 
legitimacy. It imperils public and political support for these programs 
to limit Classified briefings on their details (and often existence) to 
only eight leaders in Congress, the ``Gang of Eight.'' All Members of 
the intelligence oversight committees in the House and Senate should be 
briefed. The Privacy and Civil Liberties Oversight Board, whose 
creation was a 9/11 Commission recommendation, is finally functioning, 
providing an array of well-informed voices on the civil-liberties 
implications of sensitive National security programs.
                          information sharing
    The 9/11 Commission Report said that the ``biggest impediment to 
all-source analysis--to a greater likelihood of connecting the dots--is 
the human or systemic resistance to sharing information.'' Before 9/11, 
the Government had a weak system for processing and using the vast pool 
of intelligence information it possessed. One striking example of this 
inadequacy: In January 2000, the NSA acquired information that could 
have helped identify one of the eventual hijackers, Nawaf al Hazmi. 
This information was not shared with other agencies because no agency 
made a specific request for it.
    Such failures underscore that intelligence sharing among agencies 
is critically important and will not happen without leadership driving 
it.
    The tone is set at the top. Information sharing has improved 
significantly since 9/11. There is now a regularly-scheduled meeting on 
threats convened by the President and attended by the heads of agencies 
with responsibilities for counterterrorism. The President is directly 
involved. This forum helps ensure the President is kept up-to-date on 
threats to the country and what each agency is doing in response. The 
President's active participation ensures that agencies collaborate 
(rather than compete) and that they are focused on delivering their 
best. The meeting also enables senior officials to share information 
with each other. This valuable practice should be carried over into 
future administrations.
    A major step toward improved information sharing is underway in the 
form of the Intelligence Community Information Technology Enterprise 
(ICITE). In this system, the intelligence community will have a single 
desktop for agencies in the community, providing a common computing 
environment. Instead of each agency building its own software, which 
was the practice in the past, the community is implementing an 
architecture that will be used by all. Authorized users will be able to 
use common email and related applications. The intelligence community 
cloud will be privately hosted inside the intelligence community 
itself, managed under the community's security standards and under the 
community's security watch.
    The National Counterterrorism Center (NCTC), also a 9/11 Commission 
recommendation, is performing well. NCTC has helped make progress 
toward instilling a ``need-to-share'' culture among agencies 
responsible for counterterrorism, and we have heard that NCTC has 
received exceptional cooperation from the key intelligence collectors 
in the Government. In general, we believe that Government officials now 
recognize that the Government cannot prevent terrorist attacks without 
bringing together relevant information from many different sources and 
agencies. Responsibility for making this a reality ultimately rests 
with managers in each agency: The system must hold accountable every 
manager with responsibility for sharing information.
    One aspect of information sharing is lagging somewhat. ``Vertical'' 
sharing--sharing among Federal, State, local, and Tribal officials, as 
well as the private sector--needs attention. Before 9/11, this form of 
sharing was woefully inadequate. It has improved substantially since 
then, but the process is still maturing. It is possible that if Boston 
authorities had been advised of concerns about Boston Marathon bomber 
Tamerlan Tsarnaev's interest in connecting with overseas extremist 
elements, they could have kept a watchful eye on him.
    We note, however, that this cannot be a one-way street. State and 
local law enforcement can also be generators of useful information. The 
9/11 hijackers had several encounters with local law enforcement during 
their time in the United States. Tamerlan Tsarnaev also had several 
run-ins with the law. At a minimum, State and local law enforcement 
officials should be trained to recognize the precursors of 
radicalization.
                        biometric exit tracking
    The 9/11 Commission Report identified terrorists' travel and need 
for identification documents as vulnerable points in their operations. 
With the REAL ID Act gradually being implemented by the States, the 
country is poised to fulfill our recommendation that the Federal 
Government ``set standards for the issuance of birth certificates and 
sources of identification, such as driver's licenses.''
    But, as you know, another key recommendation, a biometric exit-
tracking system, has still not been implemented, and there is no finish 
line in sight. Without reliable exit tracking, our Government does not 
know when a foreign visitor admitted to the United States on a 
temporary basis has overstayed his or her admission. Had this system 
been in place before 9/11, we would have had a better chance of 
detecting the plotters before they struck. Creating an exit-tracking 
system is a difficult and expensive challenge, but there is no excuse 
for the fact that 13 years after 9/11 we have neither this capability 
in place nor a clear plan to get there.
                            the cyber threat
    Our mandate as a commission was to recommend National security 
reforms to prevent another 9/11. In our recent conversations with 
senior National security leaders, however, we encountered another 
concern over and over again: Intensifying attacks on the country's 
information systems, in both the private and public sectors.
    Over the past decade, cyber threats have grown in scale and 
intensity, with major breaches at Government agencies and private 
businesses. The threat emanates largely not from terrorist groups but 
from traditional state actors such as China, Russia, and Iran. The U.S. 
Government has confirmed that Chinese-government-backed hackers gained 
access to more than 2 dozen of America's most advanced weapons systems, 
including missiles, fighter jets, and advanced ships. In September 
2013, Iran hacked into U.S. Navy computer systems. Iran has also been 
behind cyber attacks on banks and oil companies operating in the Middle 
East. The Shamoon virus, attributed by many to Iran, infected a key 
state-owned oil company in Saudi Arabia and left 30,000 computers 
inoperable.
    Non-state actors are also causing increasing damage in the digital 
world. Sophisticated computer hackers have infiltrated, exploited, and 
disrupted military, Government, and private-sector systems. Denial-of-
service attacks have tied up companies' websites, inflicting serious 
economic losses. A Russian teenage hacker may have been behind the 
massive malware attack on the retailer Target, which compromised the 
credit- and debit-card data of 40 million customers. Increasingly, 
cyber attacks are targeting smartphones as well. Cyber attacks can 
constitute another form of asymmetric terrorism. The Syrian Electronic 
Army is a collection of computer hackers who are loyal to Bashar al-
Assad but who operate independently. It has targeted Syrian opposition 
political groups as well as Western websites. This is the first 
instance in the Arab world of an organization of civilian cyber experts 
forming to target groups it deems to be enemies.
    Security officials are concerned that terrorist groups' skills in 
computer technology--and in particular in manipulating offensive cyber 
capabilities--will increase in the years ahead. Terrorists may also 
seek to acquire malicious software from adversary nations or from 
hackers who are proficient at malware coding. This will make an already 
unpredictable and dangerous cyber realm even more so.
    The importance of the internet to American life and to societies 
across the globe has expanded at a phenomenal rate. As the country 
becomes ever more dependent on digital services for the functioning of 
critical infrastructure, business, education, finance, communications, 
and social connections, the internet's vulnerabilities are outpacing 
the Nation's ability to secure it. Just as the United States needs to 
protect its physical infrastructure, so too must we protect the cyber 
domain.
    A growing chorus of senior National security officials describes 
the cyber domain as the battlefield of the future. Yet, in the words of 
one former senior leader with whom we spoke, ``We are at September 10 
levels in terms of cyber preparedness.'' That needs to change. One 
lesson of the 9/11 story is that, as a Nation, Americans did not awaken 
to the gravity of the terrorist threat until it was too late. We must 
not repeat that mistake in the cyber realm.
    Government officials should explain to the public--in clear, 
specific terms--the severity of the cyber threat and what the stakes 
are for our country. Public- and private-sector leaders should also 
explain what private citizens and businesses can do to protect their 
systems and data.
    We support cybersecurity legislation that would enable private 
companies to responsibly collaborate with the Government in countering 
cyber threats. Companies should be able to share cyber threat 
information with the Government without fear of liability.
    The U.S. Government can and should do more to deter cyber attacks 
from state adversaries. The administration should determine and 
communicate through appropriate channels what the consequences of cyber 
attacks against us will be, and then act on the basis of those 
statements. And we should work with our allies to establish norms of 
cyber space, clearly defining what is considered an attack by one 
country on another.
    The administration and Congress also need to clearly delineate the 
respective responsibilities of the various agencies in the cyber realm. 
DHS and other domestic agencies need to complement, rather than attempt 
to replicate, the technical capabilities of NSA.
           waning sense of urgency among the american people
    One of America's most pressing challenges as a country is to resist 
the natural urge to relax our guard after 13 years of a draining 
counterterrorism struggle. In the absence of a major attack, it is 
easier for some who did not lose loved ones to forget the trauma of 9/
11. Increased vigilance has helped us avoid another attack on that 
scale, but vigilance inevitably wanes over time.
    A complacent mindset lulled us into a false sense of security 
before 9/11. The first World Trade Center bombing in 1993, the East 
Africa embassy bombings in 1998, and the Cole attack in 2000 were 
warnings of the virulence of the al-Qaeda threat. But the United States 
did not do enough. In particular, the Government did not explain to the 
American people the pattern that was emerging. Without appropriate 
public understanding, there was insufficient political support for the 
strenuous counterterrorism efforts that would have been necessary to 
defeat al-Qaeda.
    Avoiding complacency also means taking seriously small things that 
could be warning signs of something larger beginning to take shape. 
American officials knew suspicious men were attending flight schools, 
but in the pre-9/11 mindset it was not considered urgent. Is the April 
2013 rifle attack on an electrical substation in Metcalf, California, a 
harbinger of a more concerted assault on the National electrical grid 
or another component of critical infrastructure? What might we be 
missing today that, 3 years from now, will prove to have been a signal, 
a piece of a larger mosaic?
    As we survey the changes in Government made during the last decade, 
it is evident that the Government has come a long way. But the threat 
remains very real, and the United States cannot lose focus now. 
Terrorists can still hurt Americans, abroad and here at home.
    To sustain public support for policies and resource levels, 
National security leaders must communicate to the public--in specific 
terms--what the threat is, how it is evolving, what measures are being 
taken to address it, why those measures are necessary, and what 
specific protections are in place to protect civil liberties. In this 
era of heightened skepticism, generalities will not persuade the 
public. Leaders should describe the threat and the capabilities they 
need with as much granularity as they can safely offer.
                               conclusion
    Over the last 13 years, we have damaged our enemy, but the ideology 
of violent Islamist extremism is alive and attracting new adherents, 
including right here in our own country.
    Our terrorist adversaries and the tactics they employ are evolving 
rapidly. We will see new attempts, and likely successful attacks. One 
of our major deficiencies before the 9/11 attacks was that our National 
security agencies were not adapting quickly enough to the new kind of 
enemy that was emerging. We must not make that mistake again.
    While over the past decade our Government's record in 
counterterrorism has been good, the terrorist threat will be with us 
far into the future, demanding that we be ever-vigilant.
    Thank you for inviting us to testify, and for this committee's 
long-standing leadership on these critical issues.

 STATEMENT OF JAMIE S. GORELICK, FORMER COMMISSIONER, NATIONAL 
     COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Ms. Gorelick. Thank you, Tom, and thank you to this 
committee for this opportunity to appear before you today.
    The report points out in general that the Government has 
done a good job in keeping us safe over the last 10 years. 
Obviously, we experienced tragedies like the Fort Hood 
shootings, like the Boston Marathon bombings, but we haven't 
experienced anything like the attack of 9/11 and its magnitude 
and its seriousness.
    Adding to that, our military and our intelligence 
capacities have done great damage to core al-Qaeda, 
particularly to al-Qaeda in Afghanistan, and notably we have 
killed Osama bin Laden and taken out a good bit of the 
leadership of core al-Qaeda.
    These are very significant achievements. Maybe because of 
them, we are concerned that the attention of the American 
people may be drifting away from the threat of terrorism to 
other problems. I mean, you don't need to watch television for 
very long to see how many problems and challenges are facing 
this country. Because we have been mostly safe, the American 
public may be suffering from a waning sense of urgency, and 
that may be one of the key observations that we made, that 
there is not the sense of urgency that there was understandably 
in the immediate aftermath of 9/11. We have to guard against 
this sense of complacency, because the threat of terrorism 
persists and, in many ways, is greater than it was after 9/11.
    You have al-Qaeda spin-offs and a metastasis, if you will, 
of terrorist threats. You have an extremist ideology in which 
the hatred of the United States is a key part. The groups that 
have that ideology have proliferated around the world, and al-
Qaeda spin-off groups now operate in at least 16 countries 
around the world.
    Of great concern--and I know this committee has looked at 
this--is the fanatical Islamic State of Iraq and Syria, ISIS, 
which has conquered much of the territory of western Iraq, 
slaughtering thousands. That territory expands the sanctuary 
for terrorists in much the same way that Afghanistan offered 
sanctuary for al-Qaeda. This increases the threat to the United 
States and to the West generally.
    ISIS has existed for months and years, but its accelerated 
advances in the recent months have made that area in Iraq and 
Syria a much more dangerous place, and you can see that just in 
the last several weeks. You have dozens of Americans, according 
to the officials with whom we spoke, and maybe thousands of 
Europeans, who have traveled to Iraq and Syria to join the 
conflict. The danger is that they may redirect those 
battlefield skills that they are developing there when they 
return to our shores or to their home countries.
    Al-Qaeda in the Arabian Peninsula also has very advanced 
bomb-making skills. Those skills are being taught to a new 
generation of extremists who are fighting in Syria and Iraq, 
and this poses also a really serious threat to us, particularly 
a threat to commercial aviation.
    Then you have home-grown terrorists, what has been referred 
to commonly as the lone wolves who have been radicalized over 
the internet and pose a significant danger. You have, as the 
Chairman mentioned, Major Hassan who carried out the Fort Hood 
shootings. You have the Tsarnaev brothers who carried out the 
Boston Marathon bombing.
    We in our recommendations centered on how to protect the 
country from terrorism. As Tom said, we had these 
conversations, really, across the board with the people who 
lead our National security agencies and those who previously 
held those jobs. We were struck by the persistent concern over 
cyber and our--and the cyber attacks that are coming both from 
criminal elements and from foreign countries and from foreign 
actors to threaten this country, whose National security, after 
all, sits on a bed of privately-owned enterprise.
    The vulnerability of our cyber system, the experience that 
we have had with vast theft of our intellectual property over 
the internet, both are really serious internet--really serious 
National security challenges. The assessment of the people we 
talked to was that our capacity to fight this threat is lagging 
behind the threat itself.
    We also address in our report--and thank you, Mr. Chairman, 
for holding it up--we hope that people will avail themselves of 
it. It is a great deal shorter than our previous report, but we 
hope no less helpful. We address the NSA's data collection.
    In the last 10 years, the scale of data collection has 
increased dramatically, but it is one of our very best tools in 
fighting an asymmetric war. Obviously, one needs oversight. One 
needs protection of civil liberties. But the tools are very, 
very important. It is incumbent upon Government to explain to 
the public and persuade the public that these tools are 
necessary, and we feel that the leadership of this country has 
failed in that regard, and that the public is more worried 
about the Government than it is about terrorist enemies who 
would do us harm.
    As the Chairman and the Ranking Member have noted, the 
Congress has not dealt effectively with the structure of 
oversight of Homeland Security. The fact that when we made our 
report calling for more unified oversight, there were 88 
committees and now there are 92 committees of oversight is not 
a good trend. I know you have this chart, but it is worrying 
that this is what Congressional oversight looks like for the 
Department of Homeland Security.
    On the positive side, the director of National intelligence 
and the National Counterterrorism Center, we feel, are working 
very well. We are very pleased with those developments. 
Information sharing has been much improved. However, the 
information sharing from the Federal law enforcement agencies 
to local law enforcement has not been as good as it should be.
    As Tom noted, we reflected for a few minutes on how we came 
to our unanimous conclusions a decade ago. We would just call 
again on our National leaders for bipartisanship, particularly 
in the area of our National security.
    In many ways, we are safer today than we were a decade ago, 
but the threat continues. We saw this as a generational 
struggle, and that struggle goes on, and the greatest danger we 
fear is that of complacency. We thank you for having this 
hearing to address these important issues.
    Chairman McCaul. Thank you, Ms. Gorelick. The Chairman 
recognizes himself for questions.
    I agree, complacency is a danger here, and let me just say 
again how much I enjoyed our discussion yesterday at the 
Bipartisan Policy Center. You touched on a lot of the key 
points that we talked about. I think as we look at the threat, 
it is evolving. The idea of a large-scale 9/11-style attack 
probably most likely more difficult to pull off today because 
we have put a lot of safeguards in place and we have been 
successful at stopping many of these plots.
    However, we did have the Boston bombing. We did have the 
Fort Hood shooting. We do have al-Qaeda affiliates spreading 
throughout northern Africa and the Middle East at a rate we 
have never seen before, owning more territory than they ever 
have with now-increasing capability and training and money and 
funding.
    So while there is a narrative that, well, bin Laden has 
been killed and al-Qaeda is sort of on the run, and core al-
Qaeda has been decimated by drone strikes, I think that is a 
dangerous narrative, as well, because I think the threat is not 
getting less. It is getting probably greater. When that threat 
grows overseas, so, too, does it to the homeland.
    So my first question is, and particularly as we look at 
ISIS, because I think the Secretary of Homeland Security--I 
have had very good discussions about the threat coming out of 
Iraq and Syria now--as being the No. 1 threat to the homeland, 
and it may not--they are still trying to build bombs to blow up 
airplanes. They are still a threat to the aviation sector, 
AQAP, working with al-Nusra, ISIS, obviously, taking the 
caliphate, talking about hitting the West at some point in 
time.
    This is more of a general question, but how do we protect 
the United States from these threats?
    Mr. Kean. Well, the threat is absolutely one of the most 
serious facing us today. We said in our report 10 years ago 
that if Iraq became a failed state, it went right to the top of 
the list. Because, remember, when they planned 9/11, it took 
them 3 or 4 years to do the plot, to do the training, and all 
of that. We said in our report, they must never again have a 
place to train and have that kind of security, because if they 
do, they can again plan a massive assault, like 9/11 on the 
United States, instead of these worrisome, but minor assaults.
    So the idea of ISIS, if it becomes a haven for terrorists--
and the same thing, by the way, of Afghanistan after we leave 
becomes a haven again--that is a great danger to the American 
homeland. I think we should use every aspect of the United 
States' power to prevent any terrorist haven from ever, ever 
being allowed to exist again. There is no greater danger to the 
American homeland than a haven for terrorists to plot and plan 
over a number of years.
    Chairman McCaul. I agree with that.
    Ms. Gorelick.
    Ms. Gorelick. I would add just two points to that. One is, 
our greatest resource is intelligence, intelligence gathering 
about who was there and what their intentions are as to the 
United States. When you add that to steps taken to prevent 
people from coming back to the United States or traveling 
through Europe to the United States on passports that are good 
for travel here, those are two pretty good protections.
    We were speaking earlier about the visa waiver program. The 
premises of it were that travel from Europe was basically not a 
threat to the United States. But if people have gone to Iraq 
and Syria and have gotten the kind of training that Governor 
Kean has spoken about and can easily travel to the United 
States after that, that is a threat to us.
    Chairman McCaul. Thank you for that answer. I would like to 
refer to a chart, and I had the opportunity to talk about this 
yesterday, and I am going to continue to talk about this. I am 
going to the Aspen Institute on Saturday. This will be a great 
discussion. I think all Members of this committee should know 
that this is a reality.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman McCaul. This really defies the No. 1 
recommendation of the 9/11 Commission. It was never carried out 
by Congress. We had the Executive branch consolidate under DHS. 
If the Congress still continues to silo over jurisdictional 
battles over who has oversight over the Department of Homeland 
Security and legislative matters, my concern is not that I am 
trying to strengthen this committee. What I am concerned about 
is what this does to the American people and the distraction 
and detraction that it provides when you have the Secretary 
having to report to almost 100 committees and subcommittees. 
Almost 100 in the Congress.
    Congress has not done its job in this regard. It takes away 
from the primary focus on mission that the Department was 
designed in the first place to do, and that is to protect the 
American people. This is dysfunction. If you looked in the 
dictionary and looked under dysfunctional, you would probably 
see this map in the dictionary.
    So my question to you is, as we try to move forward--and I 
will leverage this commission, I will leverage the victims' 
families to help us in this effort to change this process once 
and for all--I know we have two prior Chairmen who tried to do 
this sitting right here. Unfortunately, they were not 
successful. I am going to do everything in my power to try to 
change this.
    So what would be your recommendation how to fix this?
    Mr. Kean. Well, look, to begin with, people have got to 
understand that dysfunctional oversight makes the people of 
this country less safe, that it impedes the Department in doing 
its job, that it hurts the Department leadership. We have had 
four Secretaries now in our Department, two Republicans and two 
Democrats. All four of them have told me personally and told 
our group, nothing is more important than changing this and 
trying to get the oversight right.
    The fact they spend 25 percent of their time or more 
testifying or appearing before a whole myriad of Congressional 
committees when they should be back in their office protecting 
the American people is crazy. If you had 100 bosses--think 
about it. Whatever work you did, if you had 100 bosses, how 
would you report to them? How would you get your job done? The 
fact that the Department of Defense, which has this huge 
responsibility, huge budget, has much less oversight than the 
Department of Homeland Security, is crazy.
    Now, there is nobody--nobody we have ever talked to who 
doubts this is a problem. There is nobody we would ever talk to 
who says there shouldn't be a solution to it and Congress 
shouldn't reform itself in terms of oversight of the 
Department, no public group, no private group, no Republican 
group, no Democratic group. Heritage agrees. So does the 
other--everybody who has looked at it says this is something 
that ought to be done.
    We have been talking about it for a number of years, as a 
number of you have. You and I both know that the only time they 
can get done really is at the beginning of the new Congress. It 
has got--we have got to stop preparing for that now, if it is 
going to be done.
    All I can say is, all 10 of us feel so strongly about it, 
the families of 9/11 feel so strongly about it, every public 
group that looks at it feels so strongly about it, whatever we 
can do to help you get this done, believe me, we will do.
    Chairman McCaul. We appreciate your assistance in that.
    Ms. Gorelick, do you have any final words?
    Ms. Gorelick. No. That is well said, Tom.
    Chairman McCaul. Yes, I think that is excellent. Thank you 
so much for that.
    The Chairman now recognizes the Ranking Member.
    Mr. Thompson. Well, I don't think there is any disagreement 
with the statement you just made, Governor. It is clear in the 
minds of everyone who is--as this Chairman said, that two 
former Chairs agree wholeheartedly that jurisdiction is 
important, and because we don't, as a country, we are less 
safe. I look forward to working with this Chairman, as the 
Ranking Member, to get as much of that chart reduced to reality 
as possible.
    So with that, there have been a couple of incidents that 
come up. The Snowden incident, we learned some things from it. 
But also, it has created some real harm with traditional 
allies. How do you think we need to fix situations like that, 
Governor, so that those countries that we rely on for 
intelligence and information sharing, that we make sure that we 
keep that?
    Mr. Kean. What I believe in--my personal point of view--and 
I think the point of view, really, of all of us on the 
commission--is that we think there should be a greater degree 
of openness with the American people. I believe personally that 
everything has changed, in terms of the terror threat, the 
technology, all of that. That requires a different response 
from Government, but I believe the Government in a democracy 
has a duty to the American people to say, all right, this is 
the problem and these are the methods we are planning to use to 
deal with this problem.
    That involves, obviously, also talking about who gets 
information and what their qualifications are, whether the 
contractors that are hired by the Government are using the 
proper means to make sure that only the people with a need to 
know get only the information they need to know.
    But in general, American people were surprised by this. I 
know a lot because of our work on 9/11 and since, I was 
surprised by it. Maybe some of you were surprised by it. I 
don't know how deeply what we were doing was shared even with 
this committee.
    It is not enough in my opinion to share it with the Gang of 
Eight. I think not everything--how we do everything, but the 
idea of what we are trying to do and why we are trying to do 
it, the more broadly we share that with the American people, 
the more the American people will support us.
    We need to share. We need to gather this information. We 
know we have to do it in order to trap the kind of terrorists 
that attacked this country. But if you do it as a surprise and 
let it be leaked by a person like Snowden, then the American 
people are blindsided. Then you have got all sorts of people 
worried about why the Government is looking at them, why they 
need this information, because they were surprised.
    So my--you know, my recommendation is that, as widely as 
possible, trust the American people. If they understand the 
danger, they will understand the need for the solutions. But if 
you don't trust the American people and try to do everything in 
secret and then they find out about it, they are not going to 
trust the American Government again.
    So, anyway, my recommendation would be just getting new 
problems out there, the terrorists are trying to attack us in 
new ways, the cyber threat is very real, so the methodologies 
we have to use to fight that threat have got to change, but we 
are telling the American people what we are doing ahead of time 
and why we are doing it.
    Mr. Thompson. Well, and thank you, Governor. You talked 
toward the end about the cyber threat. Ms. Gorelick, this 
committee is trying to get some of its tentacles around this 
issue. We have pushed legislation out.
    What do you think DHS's role in the cybersecurity 
discussion ought to be?
    Ms. Gorelick. Thank you, Ranking Member Thompson, for that 
question. This is an issue that I have been working on since 
the early to mid-1990s. It is not a new problem. One of the 
critical issues is the relationship between the resources that 
we have on the intelligence and military side versus the 
resources and responsibilities that we have domestically. Since 
that time, of course, we have had the advent of the Department 
of Homeland Security.
    No. 1, I don't think the Department of Homeland Security 
can replicate the resources at NSA. NSA is world-class. We 
can't build two of them. So the question then becomes, what are 
the authorities that the Department of Homeland Security itself 
needs? I would ask the Secretary what authority he needs when 
he is the one directing the activities of NSA domestically.
    We did not discuss this as a commission, so I am just going 
to give you my personal view. I think that the Department of 
Homeland Security has to bring to bear the awareness that it 
has of our domestic vulnerabilities and the relationships with 
our domestic industry. But the resources have to remain in NSA.
    Making sure that we have a well-oiled machine in that 
regard is extremely, extremely important. I would run a 
tabletop with the two parts of Government to make sure that 
they are really working smoothly in that regard.
    Mr. Thompson. Thank you. I yield back, Mr. Chairman.
    Chairman McCaul. The Chairman recognizes Dr. Broun from 
Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    A lot has changed. A lot hasn't changed since y'all's 
commission put out your report 10 years ago. I appreciate the 
update from y'all's commission. I think it is extremely 
important.
    But I want to go to two issues that you did not talk about 
during your original testimony. One of those is border 
security, and the other one is the visa waiver that Ms. 
Gorelick mentioned just briefly, which I blame four 
administrations, frankly, for not securing the border. The four 
administrations, two Republican and two Democrats now, have 
refused to obey the law that was put on the books in 1986 under 
the Reagan administration to deal with illegal aliens in this 
country to secure our border.
    Right now, we have a flood of illegal aliens coming into 
this country. We see on the TV all these kids which is a flood 
of these unaccompanied alien children, UACs, coming into this 
country, but that is just a small segment of people who are 
coming across our border. Would you all agree with me that it 
is absolutely imperative for our own National security for us 
to do everything that we can to make sure that anybody who 
comes in this country is vetted and brought in this country 
legally?
    Mr. Kean. Yes.
    Mr. Broun. What could we do to secure our border? What kind 
of recommendations would you make? I think we ought to put the 
National Guard on the borders, north and south, and do 
everything we can to electronically monitor, to use drones, to 
use every asset that we have to secure the borders. But I see 
this as a huge National security issue, because there are a lot 
of people coming across the border today that are OTMs, other 
than Mexicans. We know they are coming from the Middle East, 
they are coming from Africa, places like Somalia, where we have 
a tremendous growth of groups that want to destroy our country.
    Mr. Kean. Yes, as a group, we didn't talk about border 
security. We have had recommendations, for instance, that REAL 
ID, which is when somebody is in this country, they should have 
an ID that can't be copied. States--we ask States be required 
to do the driver's licenses so that they can't be duplicated so 
easily for illegal purposes. That was one of the problems of 9/
11, that all these people who were in this country to do damage 
to us had phony IDs that were duplicated.
    Another thing we recommended is that even the people who 
are allowed to come legally, we don't know when they leave. So, 
for instance, the 9/11 hijackers overstayed their welcome. They 
overstayed their visa times, and we didn't know it. We still 
don't know it.
    If somebody comes in, we know how to let them in, but we 
don't know how long they stay. We don't know how many people 
are here illegally because their visas have run out. That is a 
couple of our recommendations that are still pending in the 
area of security, of who is in this country.
    But border security is something we--obviously, very 
important, this committee has addressed it. People are talking 
about it a lot. But it is not something that we talked about a 
lot within our commission this time. We simply didn't have the 
resources at the time to do the investigation.
    Mr. Broun. I hope our current Congress and administration 
will insist that we secure our border, because it is actually a 
tremendous security problem. I want to go to something that Ms. 
Gorelick mentioned earlier, and I think that I agree with what 
she said, and that is about the Visa Waiver Program.
    I think we have a marked change in the environment in 
Europe and in countries that we allow visa waivers. We are 
allowing people to come in this country under the Visa Waiver 
Program. Would you both agree that we must change--or, I think, 
end the Visa Waiver Program and stop the ability for people 
coming in this country that want to do harm to Americans?
    Ms. Gorelick. I don't know enough to say that it needs to 
be stopped. We--as the Governor said--didn't have investigative 
authority. We just were able to talk to individuals within the 
Government and formerly within the Government who were kind 
enough to share their time and their thoughts with us.
    But it does strike us as a pertinent inquiry to ask whether 
the premises of the original program are still correct and, if 
they are not, whether there needs to be any adjustment to the 
program. Because as I recall, the premises of the program were 
that these Western countries, whose citizens we allow to come 
into the United States with minimal procedures, were safe, they 
had strong processes for themselves, protecting against 
terrorism, and thus to enhance travel among those countries and 
the United States. We would have a Visa Waiver Program.
    Well, if you have people carrying passports, which allow 
them simply to get on a plane and come to the United States, 
who are fighting with ISIS in Iraq and Syria, perhaps the 
premise of that program is no longer correct. I would ask the 
question, because I think it is a pertinent one.
    Mr. Broun. Thank you. Mr. Chairman, my time is expired, and 
I think you all for being here. But until we secure our 
borders, until we know who is here, and we start enforcing the 
laws, nothing else matters, in my opinion, Mr. Chairman. I 
yield back. Thank you.
    Chairman McCaul. Chairman recognizes Ms. Clarke from New 
York.
    Ms. Clarke. Thank you, Mr. Chairman. Thank you both so much 
for being here and sharing with us your wealth of knowledge.
    I want to circle back to the questions around the sort of 
breach of confidence in the American people with the unearthing 
of the NSA scandals. I am sure you are familiar with the 
controversy surrounding NSA's bulk collection and metadata 
programs. The Privacy and Civil Liberties Oversight Board found 
that these programs were illegal.
    Could you give us a bit more of your thoughts, given the 
uptick of lone wolf terrorist attacks? It seems as if it is 
necessary for more funding and training to go into local law 
enforcement and not to large-scale data programs. Why should 
Congress rely on the NSA's metadata collection program as a way 
to prevent a lone-wolf attack?
    Ms. Gorelick. Sure. The data programs are, in my personal 
view, and I think in the view of the commission, fundamental to 
the safety of the United States. That is not to say that they 
should not be subject to strict oversight to protect the civil 
liberties of our citizens. They should be. The need for them 
should, as Governor Kean has said, be explained to the American 
people.
    When you are carrying out an asymmetric war, where a lone 
wolf can do tremendous damage, or 19 people can do horrendous 
damage, one of the best tools that you have is the collection 
of information. My worry about the Snowden revelations is that 
they undermine the faith of the American people in our National 
security activities.
    I think those activities are important. I think the case 
has to be made for them. I think that people need to be 
reassured that some of the things that have been said about 
them are not true, and to the extent that there remain worries, 
there need to be safeguards put in place, but I personally--and 
I think the commission feels this, as well--feel that it is 
critically important that we maintain the ability to do 
surveillance and analysis to track people who would do us harm.
    Ms. Clarke. I think the--breaking down the whole metadata 
into more simplistic terminology for Americans then makes a 
distinction, because certainly we are concerned about our right 
to privacy. But folks are not clear on what metadata actually 
is. I think that that has caused a bit of the consternation 
that we are all feeling.
    Ms. Gorelick. If I might say one other thing about that, 
the reluctance of the intelligence community to talk about 
these programs actually did the programs a great deal of harm. 
Because when the report first came out on the so-called PRISM 
program, for example, it suggested that there was a big vacuum 
cleaner at the back of Google and Facebook that took all 
communications and fed it to the Federal Government. Well, that 
is not true. But the truth of what the program is and is not 
never caught up with the original stories.
    Mr. Kean. I would say, we talked a little bit about the 
public's fatigue in some ways with this issue and their lack of 
attention these days. I think the two are tied together. I 
think at the very highest levels of this Government, the public 
has got to be informed of what the threat is today, not what it 
was 10 years ago, what it is today and how serious that threat 
is.
    Then, along with that, they have got to be told what and 
why we are doing to protect the American people, because there 
is all sorts of confusion out there. I mean, this committee 
knows, but the people don't. I mean, I get the darnedest 
questions, and you probably do, too. People have no idea what 
this is all about. They do think that people are following them 
around with cameras or snooping on their phone messages or 
emails. They are not.
    Ms. Clarke. So----
    Mr. Kean. We have got to tell the American people that, but 
tell them what we are doing and why we are doing it, and it is 
to protect them, because this is what the threat is. I just--I 
think that is--at this point, it has got to come from the 
highest levels.
    Ms. Clarke. So just quickly--I have got 4 seconds--can DHS 
play a greater role in the intelligence community?
    Mr. Kean. Well, DHS has got a bit of a different role. It 
has got to cooperate totally with the intelligence community. 
It has got to be a seamless web. The importance of DHS to me is 
that I think even if the threat is just a lone wolf, maybe even 
if it is a bigger threat, it is probably not going to be 
stopped by a member of the FBI. It is probably going to be 
stopped by some local law enforcement or maybe even just a 
private citizen.
    I mean, it struck me that in that attempt to bomb Times 
Square, Times Square, there are more police per square inch 
than any place else in the world. Yet who was the one who 
discovered it? It was a street vendor who reported it. When he 
reported it, then the action went right back up. That is what 
is going to happen again.
    So people--DHS makes the connections with the local 
community, and that has got to be seamless. That is--we are not 
there yet. We are--thanks to our recommendations in part, the 
vertical sharing of information is now pretty good, much better 
than it was. But the horizontal is not as good as it ought to 
be, and it has got to be a lot better to protect the American 
people.
    Ms. Clarke. Thank you. Yield back.
    Chairman McCaul. Thank you. Mr. Palazzo is recognized.
    Mr. Palazzo. Thank you, Mr. Chairman. I want to thank the 
witnesses for being here. Enjoying hearing your testimony. I 
want to elaborate on something the Chairman started off with in 
his opening statements and I think followed up with some of his 
questions, and it is about Congressional reform.
    I think that is too important just to skip over really 
briefly. I think it is--and so I would like to just go over 
some of the statements that we have from the 9/11 Commission 
recommendation. Congress should create a single, principal 
point of oversight and review for homeland security. 
Congressional oversight for intelligence and counterterrorism 
is now dysfunctional.
    Well, a lot of people think Congress is dysfunctional. I 
think the more people that find out that this--that the 
Department of Homeland Security has to report to over 119 
committees, subcommittees, caucuses, and commissions, they are 
going to realize the answer to why we are dysfunctional is 
because we can't even, you know, focus on homeland security.
    I have every confidence in the Chairman, in the Ranking 
Member, that this--that homeland security affairs need to be 
centralized in this committee and this committee alone.
    Secretary Chertoff has stated that committees that have no 
homeland security focus risk directing DHS agencies in a way 
that conflicts with broader National security strategy. Of 
course, you know, everybody on this committee I think agrees.
    The most pressing is former Homeland Security Secretary Tom 
Ridge stated, oversight is the duty of Congress. It is your 
responsibility and is an absolute--absolutely necessary. But 
the current number of Congressional committees with homeland 
security jurisdiction is not oversight. It is overkill.
    So I would like to open that, you know, Congressional 
reform questioning back to you to--for you to be able to take 
the time that you need to expand on it. How can we fix it? 
Hopefully, going into the 114th Congress, leadership will 
realize how important it is we got to pull, you know, whatever 
the--and, also, I guess, whatever the obstacles are, we have to 
eliminate them.
    Maybe you could share your thoughts on what those obstacles 
are, as well.
    Mr. Kean. Well, we made 41 recommendations, broadly 
supported by the American people as a whole and by this 
Congress. Forty of them have been implemented in whole or in 
part, 40 of them. One is outstanding, and only one. It stands 
there glaring, really, as the one thing that hasn't been done 
to protect the American people, and it is the United States 
Congress.
    The Congress was wonderful. You know, the Congress got 
together and reorganized the intelligence department, passed a 
whole series of laws, worked--except for the one affecting 
Congress.
    I haven't found anybody outside of Congress or, frankly, 
inside of Congress who disagrees with the recommendation. I 
haven't found anybody standing up and saying, yeah, there 
should be 90 committees. I mean, there is no argument there. No 
single person anywhere that I have found in leadership, out of 
leadership that has said that is not the right thing to do.
    But they don't do it. That is what is so frustrating to us 
and frustrating to everybody who has looked at it. I say, when 
people from the right, people from the left, people from the 
center all say the same thing is important to preserve National 
security in this country, they expect it to be done. Ten years, 
got worse.
    Ms. Gorelick. What you could have happen is the next 
disaster. After the next disaster, someone will ask, who in 
Congress was in charge? Who was performing the oversight? As 
much as the title of this committee would suggest that it is, 
the reality that you will have is that dozens of committees 
are. Everyone knows that when everyone is in charge, no one is. 
But it would be too bad if it takes another disaster to make 
that point.
    Mr. Palazzo. Well, that was well said. I do hope leadership 
gets a copy of the testimony here today, Mr. Chairman, that we 
can hopefully change that going into the 114th Congress. Real 
quick. Cyber attacks, some people say that is America's biggest 
National security threat. Your testimony highlights that we are 
at pre-9/11 mindset when it comes to cybersecurity. What is 
your assessment of the U.S. Government, and particularly DHS, 
evolving capabilities to mitigate against and attack against 
Government computer networks, but also maybe private-sector 
assets, such as our grid, our satellites, and other things?
    Mr. Kean. We talked to every leader, I think, in this 
Government with major responsibilities for National security, 
plus a number of those who are no longer in Government but 
still involved. Every single one of them said we are not doing 
what we should be doing to protect ourselves against 
cybersecurity. Because this stealing of information is so 
invisible to the American public, they don't realize what a 
disaster it is. They don't understand that we are losing the 
capacity to develop some weapons systems or they are being 
stolen by other countries. They don't know that some of our 
technology which could create great jobs in this country and 
are important for our defense is being stolen today as we sit 
here, because it is silent.
    I think Government, businesses don't always like to admit 
they have been robbed in a cyber way. So we don't read about 
it, and the public isn't really informed on it. But I think the 
leaders we talk to, I think that was probably their biggest 
concern that we were way behind in putting together an approach 
to cyber, and in a number of ways, No. 1 in the Government 
itself and, No. 2, the Congress had not yet been able to get 
together on a cyber bill.
    Ms. Gorelick. I would add two things. One is, you asked 
both about the defense of Governmental computers and also about 
the private sector. I think the Government is doing much better 
at protecting itself and its own systems than it is helping the 
private sector protect itself. I think, I think we think--our 
vulnerability in the latter area is greater.
    Now, this is hard, because having the Department of 
Defense, for example, defending a telephone system, a power 
grid, a transportation system, a banking system in a way that 
it would defend itself has all kinds of complexities to it. It 
is hard.
    I will just say one thing. I did a mock tabletop that was 
on CNN. It was organized by former Secretary Chertoff. He 
played the role of the National security adviser, and he asked 
me to play the role of the attorney general. I asked him ahead 
of time whether--you know, if he could tell me what legal 
issues he thought would emerge so that I could prepare, and he 
said, oh, don't worry about it. This is not so much about legal 
issues.
    As the hypothetical unfolded in this exercise, everyone, 
before they acted, would ask me, as the mock attorney general, 
can I do this? I think that the issue of what the authorities 
of our Government agencies are to come to the aid of a system 
under attack is still a very much live question and may be one 
of the hardest in this country, because we are uncomfortable 
with having our National security apparatus operating in the 
private sector.
    But if you think about what the real threats are, an enemy 
who would shut down our power grid, for example, those are real 
threats to which I don't believe we have great answers at the 
moment. I would press our leaders on this, and I would ask the 
hard questions. I think you are right to focus on this.
    Mr. Palazzo. Thank you. Thank you, Mr. Chairman. Yield 
back.
    Chairman McCaul. Chairman recognizes Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. Governor Kean, Ms. 
Gorelick, thank you for your public service, your testimony 
today. So much of what you advised us on in your initial report 
and in this reprise this year resonate, obviously, with this 
committee, most importantly the concentration of jurisdiction, 
responsibility, and oversight. That makes so much common sense, 
it is hard to argue with. I don't know why we haven't been able 
to do it, but, you know, we will add my efforts to the cause to 
ensure that it happens.
    I wanted to--because the issue of border security was 
raised, I wanted to touch upon it, welcome your comments on it, 
should you like to. If not, I would also like to ask you about 
your recommendations related to the authorization and use of 
military force.
    But when it comes to border security, I want to make sure 
that we don't conflate problems and mislead and misdirect the 
public and policymakers. By any measure today, the Southern 
Border is as secure as it has ever been. If you look at 
apprehensions, on the eve of 9/11, in 2000, we had 1.6 million 
apprehensions at our Southern Border. Last year, it was 
420,000. This year, given the spike in refugees and asylum-
seekers from Central America, it may come close to 500,000, but 
it is still a fraction of what it was 15 years ago on the eve 
of 9/11.
    I represent El Paso, Texas. The committee is sick of 
hearing me say this, but I want to make sure I get it out in 
front of you. It is the safest city of America 4 years in a 
row, despite being the largest binational community in the 
world, conjoined with Ciudad Juaarez in Mexico.
    The National Guard, drones, border fencing, none of those 
would have stopped the 9/11 terrorists. As you have said in 
your answer to my colleague earlier, that was really an issue 
of visa overstays and ensuring that we understand who is in 
this country, how long they are here, what they are doing, and 
when they depart. So I wanted to kind-of clear the record on 
whether or not the border is secure.
    On the issue of the authorization and use of military 
force, I would love to understand more specifically what you 
are thinking about. You know, I--along with my constituents--
are wary with the number of years that we have been at war, the 
lives lost, the treasure spent, and the inconclusive results, 
whether you look at Iraq, whether you look at Afghanistan, what 
did we purchase with those lives and that money?
    Yet you can't ignore the threat that ISIL poses to us, 
should they gain control of the levers of a state, a 
functioning state, and be able to issue passports, be able to 
print currency, have those protections that statehood offers. 
What is your advice on how we move forward with this 
authorization? What would you recommend to us to ensure that we 
are safeguarding the homeland's interests and yet not 
committing ourselves to perpetual war?
    Mr. Kean. What is difficult is that the administration in 
action is relying on a resolution that was passed for a 
specific purpose a long time ago. It has never been revisited.
    I am a historian by training. I believe very, very strongly 
that the Congress has a very important role when it comes to 
whether or not this country should commit troops. It should 
never give up that role. It should fight for it.
    I worry very much that, as long as we just let that 
resolution sit out there and let this administration--future 
administration use that instead of coming to an understanding 
of what Congress's role and what the administration role is and 
doing it openly, that we are going to get ourselves in trouble.
    It is a hard one. It is very, very hard. I understand why 
people feel they would rather not deal with it. But when you 
commit American forces and American lives, very, very important 
that Congress has got to have a role that everybody 
understands. I don't think they do right now.
    Mr. O'Rourke. Jamie.
    Ms. Gorelick. I would just add a couple of thoughts. One is 
that I don't think the current actions of the Executive branch 
are legally vulnerable for relying on the current 
authorization. But it is better policy for there to be a debate 
about what we should and should not be doing as a country.
    Congress, as Tom says, has a very important role here. The 
debate, if you have it, will be a hard one, because there will 
be people who say, enough is enough, we don't want to do 
anything, we are done. There will be people who say, the threat 
is very real, we can't unilaterally back off from the fight, 
and here are the authorities that we need. It is a hard 
argument. It will be a tough argument. But it is an argument 
that should be had. It might actually help to explain to the 
American people what the current threat is.
    Our view is that it is sort of in many ways out of sight, 
out of mind. Given that we are sending troops to be in harm's 
way, given that our intelligence community resources are 
putting themselves, those people in harm's way, it would be a 
very helpful discussion for Congress to have.
    Mr. O'Rourke. Great. Thank you. Mr. Chairman, I yield back.
    Chairman McCaul. The Chairman recognizes Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman, and thank you, it was 
wonderful to visit with you right before the hearing. So thank 
you so very much for being here.
    In your report, you did talk about something that I want to 
shift gears a little bit, the possibility of a major biological 
attack that in terms of the numbers killed and the 
psychological impact that it would have, that it would be so 
devastating.
    I chair the Emergency Preparedness, Response, and 
Communications Subcommittee, and we have had a couple of 
hearings on--and actual briefings on the threat of a biological 
attack. We believe that that is a very real possibility. We 
also know and heard from testimony from Dr. Bob Cadlick and Tom 
Ingelsby that the threat is very real. We had a hearing on 
that.
    But the administration has eliminated the position of 
special assistant to the president and senior director for 
biodefense policy, a position that did exist in the Bush 
administration. I am wondering your thoughts on whether or not 
there is sufficient attention and focus on the possibility of a 
biological attack, again, one of those types of attacks that I 
think the American people truly have no real understanding of.
    Are we doing--what should we be doing to better educate the 
public and even Members of Congress and the country about what 
that means, what we should be doing, the importance of tools 
like BioWatch, and the importance of those investments? 
Anything--and particularly after we have seen what has happened 
in Syria, with Assad, and now that we know we have so many 
Westerners, you know, possibly, you know, in Iraq and Syria. 
You know, what kind of concern and attention should we be 
giving to biological?
    Mr. Kean. Biological--to deal with some of these things 
without scaring the American people to death is sometimes 
difficult. But we always said about biological the same thing 
we said about nuclear, really. We didn't think it was the most 
likely, but the results if it was successful would be so 
devastating that we had to do everything in our power on the 
preventative side from educating the American people, which I 
don't think we are doing sufficiently in that area, to doing 
whatever we can do in Government to prepare, both 
unfortunately, to prepare in two ways. One is around educate 
the American people to prevent it. The other is, God forbid it 
should ever happen, are we prepared medically to deal with the 
after-effects? Are we doing enough? Probably not.
    But it is a difficult, difficult subject to deal with, with 
the American people, I think, anyway.
    Ms. Gorelick. A low-probability, high-consequence event, 
very much worried us in our first report. We remain concerned 
about it and very much appreciate, Congresswoman Brooks, that 
you are spending so much time on this, as are others, the 
Center for Biosecurity and others.
    We don't know--we did not have the resources to look into 
whether the Executive branch is properly organized on this. We 
do know that there are a lot of people who are looking at it. 
It is my impression that on the resilience that Tom referred 
to, the preparedness for an event, we are in much better shape. 
You could see that in part in how well-organized the medical 
community was in Boston in the aftermath of the marathon 
bombing to respond. I think the medical community has actually 
made great strides.
    But what we are doing to prevent such an event, what our 
surveillance is of pathogens and the like, we just don't know, 
but it remains with us a very persistent worry.
    Mrs. Brooks. The only other question I would like to ask is 
what your observations are about--and, again, this is what our 
committee is focused on--our interoperable communications 
issues. With FirstNet standing up and finally getting started, 
any closing--and my time I have remaining--any thoughts you 
would like to talk about, the level of interoperable 
communication success or lack thereof?
    Mr. Kean. It was one of our biggest frustrations that that 
recommendation took so long. People, as you know, died on 9/11 
because policemen couldn't talk to firemen. People died in 
Katrina because people in helicopters couldn't talk to people 
in boats because these things weren't--and I know we have now 
got something finally in place, but I would suggest the 
function of this committee and the Congress is to monitor that 
very, very carefully and make sure it is being carried out not 
just in certain regions, but all over the country in a way that 
first responders, emergency management can talk to each other, 
because that is--that saves lives, not just in terrorist 
attacks, but in hurricanes and floods and all sorts of other 
emergencies.
    I would just--that is--we haven't got the power to do it as 
citizens, but as a committee, I would ask you please to monitor 
that as carefully as possible and make sure it is done the way 
it was supposed to be done.
    Ms. Gorelick. I would second that.
    Mrs. Brooks. Well, thank you. Pleased to share, we are 
having a hearing, Ranking Member Payne and I are having a 
hearing on--in early September after the recess on FirstNet and 
its progress and where we need to go. So thank you. Thanks for 
all you have done for the country. Yield back.
    Chairman McCaul. It is a good transition to Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, to the Ranking Member. 
It is a real honor and a privilege to have one of the greater 
Governors that the State of New Jersey ever had the fortune of 
serving the State, contributed in many ways to our State and to 
our Nation.
    I think the statute of limitations has run out, so I can 
say that I voted for Governor Kean in his second term.
    [Laughter.]
    Mr. Payne. I am not supposed to say that, but it is a 
testimony to his dedication and commitment to all the citizens 
of the State of New Jersey and for this country, so we thank 
you.
    Mr. Kean. Thank you.
    Mr. Payne. Defending our homeland relies on, you know, 
effective information sharing, as we were just talking about, 
because various intelligence agencies and also from our 
international partners. Since 9/11, how has information sharing 
improved in the intelligence community? Where is there 
significant room for improvement? Can DHS play a greater role 
in the intelligence community?
    Mr. Kean. Well, information sharing is a lot better, a lot 
better, particularly across agencies. As you know, some of us 
believe that 9/11 might have been prevented if the intelligence 
agencies had shared information they had, because it would have 
resulted in the apprehension of at least some of the terrorists 
and that might have disrupted the plot. So it is very, very 
important.
    We believe since this Congress established the DNI, and the 
DNI is still a very new part of Government, but what we gain 
from talking to people across a wide variety of Government 
agencies is the confidence that DNI is finally working, that it 
seems to be coordinating the way we intended when we wrote the 
report and the Congress intended when they passed the bill and 
that it is coming into its own. That was very, very 
encouraging.
    I would say the problem on sharing, I think--and this is 
homeland security--is vertical sharing, whether or not people 
in the Federal Government trust people at the local level, 
because they have to. That is--if there isn't that shared 
trust, if the State policemen, the local policemen, the local 
agencies aren't sharing information with the Federal Government 
back and forth on a matter of trust, then we are not going to 
ever protect ourselves properly.
    So is the sharing much better? Yes. Is the sharing 
vertically, particularly with the local level what it should 
be? No. I think Homeland Security has got to continually work 
on that.
    Mr. Payne. Ms. Gorelick.
    Ms. Gorelick. I would just add a couple of things. As 
Governor Kean said, the director of national intelligence has 
done a very good job of deciding the rules of the road with 
respect to sharing. The National Counterterrorism Center has 
become the fulcrum that one wants to see. So we have broken 
down silos across the Government.
    There has to be wide sharing of information of 
counterterrorism information, and it has to move very quickly. 
The challenge is to make sure that people who don't need to 
know certain facts, certain information don't get that, and 
that is the next stage of development that has to occur here, 
because otherwise you get a Snowden or a Bradley Manning, which 
is a terrible threat to our National security to have somebody 
who doesn't need to know taking that information and 
proliferating it.
    So we are very pleased with what we have seen in the 
progress that the DNI has made and the NCTC. We think there is 
yet progress to be made in informing State and local police and 
other first responders in communities so that they can be of 
help, as well.
    Mr. Payne. Mr. Chairman, in the interest of time, I will 
yield back. Thank you.
    Chairman McCaul. Thank you, sir.
    Mr. Barletta is recognized.
    Mr. Barletta. Thank you, Mr. Chairman.
    As you know, the 9/11 Commission Report makes several 
connections between enforcement of our immigration laws and 
National security. Page 98 of the report describes how 
terrorists would inevitably benefit from any form of legal 
status. Terrorists fear deportation, and they don't care about 
American citizenship. They simply need to find a legal way to 
remain in the United States.
    Another section of the 9/11 Commission report describes the 
importance of enforcing the immigration laws Congress has 
already passed, such as the establishment of an exit system to 
track visa overstays. The report describes how INS, now CPB, 
initiated but failed to bring to completion two efforts that 
would have provided inspectors with information relevant to 
counterterrorism, a proposed system to track foreign student 
visa compliance, and a program to establish a way of tracking 
travelers' entry to and exit from the United States.
    The report urged full implementation of a biometric exit 
system. The report also describes how border security should 
not be seen as a bargaining chip in immigration reform, but 
rather a significant National security concern. The report 
states, indeed, after 19 hijackers demonstrated the relative 
ease of obtaining a United States visa and gaining admission 
into the United States, border security still is not considered 
a cornerstone of National security policy. We believe that it 
must be made one.
    The 9/11 Commission further noted on page 390 of its report 
that all but one of the 9/11 hijackers acquired some form of 
United States identification document, some by fraud. As a 
result, the commission recorded that the Federal Government 
should set standards for the issuance of birth certificates and 
sources of identification, such as driver's license.
    Now, Governor Kean, why do you think the Department of 
Homeland Security continues to drag its feet in completing the 
biometric exit system? What kinds of threats continue to slip 
through the crack as a result?
    Mr. Kean. Well, part of it, frankly, is just enforcing the 
laws we have. Sixteen of the 19 terrorists came in with some 
form of phony visa or phony identification. Then, of course, as 
you say, they easily got driver's licenses and credit cards and 
all of that, and they were roaming around this country, even 
though some of them were wanted in other parts of the world. A 
lot of that has been corrected.
    We believe still, very strongly, in the biometric system. 
My understanding is, the resistance has come from certain 
States. There are a number of States who have done it. A number 
of the driver's licenses we now carry are biometrically done 
and would stand up against any kind of scrutiny, but certain 
States have not yet, I don't think, done it yet, and I would 
encourage us to make them comply with the law like they are 
supposed to do it.
    So it is a--and everything we said in the report I think we 
still stand by today. We are not where we should be still. We 
have done a lot. Most of our recommendations have been 
fulfilled in part or in full, which you mentioned some of them 
that haven't been and we still stand by them.
    Mr. Barletta. Yes, I quote the 9/11 Commission Report 
often, because it was passed by Congress, signed by the 
President, is law, but yet we continue to ignore it, whether it 
is the States offering driver's license to people who are 
undocumented, and undocumented means we don't know who they 
are. They don't have documentations.
    Mr. Kean. Yes.
    Mr. Barletta. So we are issuing a legal form for people to 
exist here in the United States without really knowing who they 
are. Even when we talk about immigration reform, again, that 
violates the concept of that report, because of the fraudulent 
documents, and we don't know who we are allowing to stay here. 
Without border security first--you know, any State that has an 
international airport is a border State, in my opinion, because 
people can easily--and nearly 50 percent of the people that are 
here illegally didn't cross the border. They come on a visa.
    Mr. Kean. Yes, and we would also, again, recommend you look 
at this--you look at finding a way to track people who overstay 
the visas, because that is what the terrorists did.
    Mr. Barletta. Or method of entry for people that want to 
hurt us.
    Mr. Kean. We had no idea that they were still here, because 
we have no way of seeing how long people stay in this country.
    Mr. Barletta. So a true border security bill won't be a 
true border security bill unless we implement a biometric entry 
and exit so that we know everyone that--whether they are coming 
or going in the country, because just simply at our physical 
borders, north and south, isn't enough.
    Mr. Kean. It is not enough. You are right.
    Mr. Barletta. Thank you. Thank you, Mr. Chairman. Yield 
back.
    Chairman McCaul. The Chairman recognizes Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    I want to thank the witnesses, not only for your testimony 
today, but also for the important patriotic duty that you 
performed as members of the commission and now to give us an 
update on progress on the 10th anniversary of your initial 
findings and report.
    I want to talk about a few issues that we have discussed in 
part, but a couple we haven't. First of all, when the Chairman 
showed the chart illustrating the lines of responsibility that 
subcommittees and committees have over Department of Homeland 
Security, it was for me the first graphic depiction of what we 
have been talking about since I got here in 2012.
    Unbelievable. I saw that in the Times on Sunday and I 
thought, somebody is trying to make a point, and they made it 
really well, because look at this chart. We have to get to the 
bottom of this. Congress--this Congress, obviously, won't do 
it. No time left. But I believe it is an essential priority and 
charge of--when the Congress comes back into session in 2014.
    Do you have any estimate at all--does anybody have an 
estimate of the number of hours that the Department of Homeland 
Security must put in to answering the questions from over 100 
different organizations, entities, and committees? Do you know 
that?
    Mr. Kean. Somebody talked about it today, didn't they?
    Ms. Gorelick. Well, we know the number of hearings and the 
number of responses. I think actually the Chairman had that in 
his opening statement.
    But I think it is both the amount of time and effort that 
the leadership of the Department of Homeland Security is 
putting in, but it is also the lack of an appropriate 
counterparty. When I was deputy attorney general, I knew very 
well what the Chairman and Ranking Member in the House and the 
Senate of my authorizing committees thought about what I was 
doing. If I didn't know, I knew who to call.
    If I had to have that same interaction with even five 
committees, it would have been disabling. As Governor Kean said 
earlier, anyone who has had more than one boss knows that that 
is disabling. It is the lack of cohesion in the interaction 
with the Executive branch that undermines agility. If we have 
learned anything since 9/11, it is the need for agility.
    Mr. Barber. I agree with you. I think the Department cannot 
be as nimble as it needs to be to meet the homeland security 
issues that are coming up every day in new ways. This 
committee, I think, has done an incredibly good job of coming 
together in a very bipartisan way. Since I have been here, we 
have had markups with 100 percent unanimity amongst the 
committee Members. We are really focused.
    Pretty much like on the other committee I am on, the 
Department of Homeland Security's committee, Homeland--the 
House Armed Services Committee, has the same attitude, the same 
knowledge, the same focus on making sure DOD is accountable. 
This Congress cannot perform its duties of oversight with all 
of these jurisdictions in place, and I hope that the new 
Congress will take this up as a priority.
    I want to talk a little bit about border security. My 
colleague, Mr. O'Rourke, did indicate that some areas of the 
border, particularly the area that he represents, are certainly 
more secure than they have ever been. I accept that. But there 
are gaps.
    One of those gaps, unfortunately, is in a district that I 
represent, where 83 miles of border with Mexico is not secure. 
Other than--the ports of entry are pretty well-staffed, but 
when you get out into the rugged areas where the ranchlands 
are, it is wide-open territory.
    I believe that not only is it wide-open territory for the 
cartels, who are smuggling people and drugs, it is a 
potentially wide open territory for potential terrorist 
movement across our Southern Border with whatever devices they 
want to harm the country. Would you comment on that aspect of 
border security? I will just give you one statistic about my 
district, the sector that is in my district: 47 percent of the 
drugs that are seized in this country are seized in the Tucson 
sector, 47 percent. Thirty-five percent of the illegal 
immigrants are seized or apprehended in my district.
    It seems to me that is wide open for terrorist activity. 
Would you comment on how we might address that issue, since 
clearly we have to defend the homeland against that 
possibility?
    Ms. Gorelick. You know, this is--we are private citizens 
and had no investigative resources, so we did not study the 
issue of the relationship between the border today and the 
potential for a terrorist threat. We did spend, as Governor 
Kean has said, a lot of time in our original report on the 
importance of securing our borders and ensuring that we know 
who is in this country.
    But beyond that, we did the work that 10 people with a 
little bit of funding and a willingness of people in the 
National security community to talk to us can do. So I don't 
know that we can give you a current assessment ourselves.
    Mr. Kean. We had--all of our staff was volunteer. We, of 
course, are all volunteers. We didn't have either the security 
clearances or the money and staff to do the kind of work which 
I think you would have liked to do, to answer your question.
    Mr. Barber. Well, I certainly want to thank the witnesses. 
I am over my time, but you have done an incredible job serving 
this country today and in your original work on the commission. 
Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. The Chairman recognizes Mr. Marino.
    Mr. Marino. No questions.
    Chairman McCaul. The Chairman recognizes Mr. Meehan.
    Mr. Meehan. Thank you, Chairman.
    Thank you, Governor, for being here. I am Pat Meehan from 
Pennsylvania and Somers Point, so I am grateful for your--and 
Deputy Gorelick, thank you again. As an alumnus of the Justice 
Department, I appreciate the service of both of you and 
continuing to follow this 10 years later.
    I just want to attach myself for a minute for the record, 
but I think your supporting the concept of what my friend, the 
gentleman, Mr. Barber, just explored, I note your report calls 
it the most important unfulfilled recommendation of the 9/11 
Commission is the Congressional oversight issue that was just 
identified. I think we need to take it to heart. The fragmented 
oversight is an impediment to the Department's successful 
development, but it has also made Americans less safe.
    This is a critically important thing. I thank you for your 
testimony. I am not going to ask you to expound on it further, 
but I hope we can take your testimony and invoke the importance 
of that with my colleagues to revisit this issue.
    In the moments that I do have, one of the issues that you 
also both identified in the report is the emerging threat, 
which wasn't at the heart of 9/11, and it is the cyber domain 
and the recognition that our policies are not keeping pace with 
the breathtaking, rapid advances in technology.
    You look for a number of things to be done. Perhaps you can 
tell me in your words what you think the most important things 
we ought to be doing and how we ought to be doing a better job 
communicating with citizens out there about the nature of the 
threat, what they can do to help us make ourselves more secure 
from what could be a remarkably devastating impact of a cyber 
attack.
    Mr. Kean. Jamie has talked about this, I think very 
articulately, but it is a silent threat as far as most of the 
public is concerned. They just don't see it. I mean, somebody 
says, well, we lost some information that the Department of 
Defense had to a cyber attack. Somebody got some information. 
Or this Boeing was doing a new invention of some sort or a new 
technology, and somebody in China got it, and you sort of read 
that in the newspaper and you read something else.
    But it is not real to people, because it is quiet. Partly 
because Government--neither Government nor the private sector 
likes to admit they have had things stolen and they don't have 
them anymore. So the public is not as aware as it ought to be 
of the cyber threat and why it is important.
    I think Jamie hit it right when she said, you know, getting 
the Government to combine with the private sector, most of the 
infrastructure is in the private sector. It is not in the 
Government. We have to protect the Government, obviously, but 
we have also got to protect the private sector, because it is 
not only technological future, but it is our economic future. 
If we allow the innovation that this country has always been 
known for to be stolen from us, we are allowing this country to 
undergo great harm.
    So I think when Jamie says getting the Government to really 
work with the private sector and help the private sector and 
get the private sector to trust Government so their expertise 
can be put together to protect not just the Government, but 
also the private sector, is absolutely what should be done.
    Ms. Gorelick. There is a woodenness in the interaction 
between the private sector and the Government on this issue 
that is not optimal. There is a--there are real inhibitions to 
the private sector sharing a vulnerability with the Government. 
There are liabilities that attach. There are huge inhibitions 
to the Government protecting not just its own computers, but 
the privately-held computers on which our security rests. These 
are tough, tough issues because we are not used to having our 
military operate domestically, which is really underlying this 
entire debate.
    The resources to help the private sector fight back rest in 
our military. We don't usually deploy our military to help a 
domestic entity defend itself. That is at the crux of the 
problem. These are tough issues.
    I would try to get underneath them to understand them, to 
see if we are matching up what we ask of our Government with 
what the threat is, because one of the things we said in our 
original report was that the most--one of the most natural 
things to do is to define away the hard part of your job. NORAD 
gave to the FAA the hard part of its job. NORAD said, our 
Defense Department said we will take care of the threat up 
until the U.S. border. You take care of the threat inside the 
United States.
    So nobody with any actual force and power, because the FAA 
doesn't have an Air Force, had the job of thinking about and 
preparing for and addressing someone hijacking a plane 
domestically. So it was a gap. If you had said to our Defense 
Department, ``We want you to defend the United States not only 
against a plane coming across from Russia, but somebody 
hijacking a plane in the United States,'' we would have had a 
robust plan. We had no such plan.
    I think we are in the equivalent place today, where we are 
so worried about using our military capabilities in aid of a 
domestic vulnerability that we are not doing what we need to 
do. We are putting our heads in the sand. I think we heard that 
from pretty much every member of the National security 
community with whom we spoke.
    Mr. Meehan. Where do you go? Where do you go with 
authorizing private companies to take some action on their own 
that would be responsive what are cyber intrusions into their 
own databases?
    Ms. Gorelick. Congressman Meehan, that is a very good 
question. So if I own an ISP or I own a telephone company today 
and I am attacked, I am probably experiencing that attack 
through two other private systems. Can I go through those 
private systems to counterattack? No. I am disabled. That is a 
really important problem, an inhibition to keeping us safer.
    I think there are hard issues, to be sure. There are hard 
issues. But having no solution is not the right solution.
    Mr. Meehan. Well, I thank you for your testimony on this. I 
think we could spend an entire hearing focused on that issue 
and others. I think that it is important that you do know, 
consistent with this report, and your recommendations, we have 
gotten out of the full committee in a bipartisan fashion very 
substantive cyber legislation that we hope may actually get 
onto the floor in the coming weeks that begins to create the 
relationship, working with FBI, NSA, and others, putting the 
DHS as the civilian interface with the private sector, working 
on issues of liability that would enhance the willingness and 
readiness to collaborate and communicate in a timely manner on 
the threats that they are facing, because as the Governor said, 
90 percent of the assets are in private hands.
    It is a different situation than we have ever faced before. 
We think this is an important next step, but only a next step 
on what needs to be a continuing emphasis. Thank you for your 
great work and your very important testimony that helps us 
create a record that allows us to continue to move from this to 
the kind of constructive reform and expansion of the 
responsibilities that we have got to deal with on here. Thank 
you so much for your service.
    Chairman McCaul. Let me thank you for your leadership on 
the cybersecurity bill that hopefully will get passed next week 
on the floor.
    Let me thank the two of you, Governor and Ms. Gorelick, for 
your service, and all members of the 9/11 Commission for your 
great work on this report and service to the American people to 
protect them. I think Congress could be doing a better job in 
reorganizing itself to protect the American people, rather than 
squabble over jurisdictional lines. I think every Member of 
Congress is responsible if something does happen, will be 
responsible if we don't fix this problem.
    Ultimately, while Chairmen will fight and never give up 
jurisdiction, I have found as a Chairman, it is really up to 
leadership to make that call. It is up to our leadership to 
step forward and take responsibility to do what is right for 
the American people.
    So, again, thank you for being here today. With that, this 
committee stands adjourned.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
